         INTEGRITY* EFFICIENCY* ACCOUNTAB I LITY* EXCELLENCE




                                    Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that:         supports the warfighter;
       promotes accountability, integrity, and efficiency; advises the
            Secretary of Defense and Congress; and informs the public.



                                     Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                      •••••••••••••••••••••••••••••••••
                      Fraud, Waste and Abuse

                      HOTLINE
                     1.800.424.9098 • www.dodig.mil/hotline
                      •••••••••••••••••••••••••••••••••



For more information about whistleblower protection, please see the inside back cover.
September 16, 2013

Objective                                                 Recommendations
We determined whether the Navy Commercial                 We recommend CNIC replace Rapidgate with a system that uses the
Access Control System (N<CACS) was mitigating             mandatory databases and revise CNIC policy and guidance to align
access control risks for Navy installations.              with Federal and DoD credentialing requirements. Furthermore,
                                                          we recommend CNIC establish a process to identify and provide
                                                          commanders with resources and capabilities to access required
Findings                                                  authoritative databases.
NCACS did not effectively mitigate access control
risks associated with contractor installation             Additionally, we recommend the Director, Shore Readiness, Deputy
access.   This occurred because Commander,                Chief of Naval Operations (Fleet Readiness and Logistics), obtain an
Navy Installations Command (CNJC) officials               independent, comprehell1sive business case analysis of NCACS and
attempted to reduce access control costs. As              determine future actions for contractor installation access. We also
a result, 52 convicted felons received routine,           recommend the Director perform a review ofCNIC N3AT officials and
unauthorized     installation    access,   placing        consider administrative actions, if appropriate. We also recomme nd
military personnel, dependents, civilians, and            the Assistant Secretary of the Navy (Research, Development, and
installations at an increased security risk.              Acquisition), review the inappropriate contracting practices and
Additionally, the CNIC N3 Antiterrorism office            establish a corre-ctive action plan.
(N3AT) misrepresented NCACS costs.             This
occurred because CNIC N3AT did not perform
a comprehensive business case analysis and
                                                          Comments
issued policy that prevented transparent cost             Comments submitted for CNIC were nonresponsive regarding the
accounting of NCACS.      As a result, the Navy           recommendations to replace Rapidgate with a system that uses the
cannot account for actual NCACS costs, and                mandatory databases, revise CNIC policy, and provide installations
DoD Components located on Navy installations              with resources to access the mandatory databases. The Director,
may be inadvertently absorbing NCACS costs.               Shore Readiness, Deputy Chief of Naval Operations (Fleet Readiness
Furthermore, CNIC N3AT officials and the                  and Logistics), comments were generally responsive. However, the
Naval District Washington Chief Information               Director's comments were partially responsive regarding the review
Officer circumvented competitive contracting              of CNIC N3AT officials.     Comments submitted for the Assistant
requirements to implement NCACS.               This       Secretary of the Navy ( Research, Development, and Acquisition)
occurred because CNIC N3AT did not have                   were responsive.     We request management provide additional
contracting authority. As a result, CNIC N3AT             comments by October 18, 2013. See the Recommendations Table
spent over $1.1 million i n disallowable costs            on the back of this page.
and lacked oversight of, and diminished legal
recourse against, the NCACS service provider.




Visit us on the web at www.dodig.mil
                                                      FSR SFFIEIAis ~SE OtlUf
                                                                                DODIG·2013-134 (Project No. 02013-DOOOLC-0008.000)   Ii
                                                             F8R 8FFJCh1d:; ~SE 8NL\'




            Recommendations Table
                                                                                   Recommendations             No Additional
                                           Management
                                                                                   Requiring Comment         Comments Required

             Assistant secretary of the Navy (Research, Development, and
                                                                                                             B.l, C.l, C.2
             Acquisition)

             Director, Shore Readiness, Deputy Chiet ot Naval Operations
                                                                                   C.3.a, C.3.b, C.3.c       B.2.a, B.2.b
             (Fleet Readiness and Logistics)

             Commander, Navy In stallations Command                                A. l, A.2, A.3.a, A.3.b

              Director of Contracts, Naval Sea Systems Command                                               (.2

             Chief of Contracting, Naval Surface Warfare Center, Panama City                                 C.4.a, C.4.b

             Chief of Contracting, Naval Surface Warfare Center, Port Hueneme                                C.4.a, C.4.b

              Please proviide comments by October 18, 2013.




ii   I DODIG-2013-134 (Project No. 1>2013-DOOOLC-0008.000)   f'~R ~FFIEIAL   M8E ~NLY
                                       FOR OFFIEIAL l-JSE EHib'/

                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                    4800 MARK CENTER DRIVE
                                 ALEXANDRIA, VIRGINIA 22350-1500



                                                                                 September 16, 20 13

MEMORANDUM fOR ASSISTANT SECRETARY Of TIIE NAVY (RESEARCH,
                 DEVELOPMENT, AND ACQUISITION)
               DIRECTOR, SHORE READINESS, DEPUTY CHIEF OF NAVAL
                 OPERATIONS (FLEET READINESS AND LOGISTICS)
               COMMANDER, NAVY :iNSTALLATIONS COMMAND
               DIRECTOR OF CONTRACTS, NAVAL SEA SYSTEMS COMMAND
               CHIEF OF CONTRACTING, NAVAL SURFACE WARFARE CENTER,
                 PANAMA CITY
               CHIEF OF CONTRACTING, NAVAL SURFACE WARFARE CENTER,
                 PORT HUENEME

SUBJECT: Navy Commercial Access Control System Did Not Effectively Mitigate Access Control
         Risks (Repot1 No. DODIG-2013-134)

We are providing this report for your review and comment. The Navy Commercial Access Control
System. (NCACS) did not effectively mitigate contractor access control risks and allowed convicted
felons to access Navy insta llations without the knowledge and approval of the installation
commander. In addition, Commander, Navy Installations Command, N3 Antiten·orism office,
misrepresented NCACS costs and circumvented competitive contracting requirements to implement
NCACS. We considered management comments on a draft of this report from the Department of
the Navy, through the consolidated responses by the Deputy Under Secretary of the Navy (Plans,
Policy, Oversight, and Integration), when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. Comments
submitted for the Assistant Secretary ofthe Navy (Research, Development, and Acquisition);
Director, Shore Readiness, Deputy Chief of Naval Operations (Fleet Readiness and Logistics); and
Director of Contracts, Naval Sea Systems Command, were generally responsive. Comments
submitted for the Commander, Navy Installations Command were nonresponsive. We request the
Director, Shore Readiness. Deputy Chief of Naval Operations (Fleet Readiness and Logistics),
provide additionaEcomments on Recommendation C.3 and the Commander, Navy Installations
Command, provide additional comments on Recommendations A.l , A.2, and A.3 by
October 18, 2013.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file containing
your comments to audros@dodi g.mil. Copies of your comments must have the actual signature of
the authorizing official for your organization. We are lmable to accept the /Signed/ symbol in place
of the actual signature. If you arrange to send c lassified comments electronically, you must send
them over the SECRET Intemet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-
(DSN66-        ).


                                                dJ~-·~Jh<vo
                                               Alice F. Carey
                                               Assistant Inspector General
                                               Readiness, Operations, and Support


                                       F9R 9FFIEUrb l-JSE OPH:Y                                   DODIG-2013-134   I iii
                                                    FOR OFFIC!Ab USE ONLY




                    Contents
                    Introduction
                    Objective                                                                           1
                    Background                                                                          1
                    Review of Internal Controls                                                         4

                    Finding A. NCACS Did Not Effectively Mitigate
                    Access Control Risks for Contractors Entering Navy
                    Installations                                                                       5
                    Requirements to Vet Contractors Accessing Navy Installations                        5
                    Contractor Employees Enrolled in Rapidgate Received Interim Installation Access
                    Without a Background Check                                                          6
                    Contractor Employees Received Credentials Without Being Vetted Through Authoritative
                    Databases                                                                          7
                    CNIC Attempted to Reduce Access Control Costs                                       9
                    Installation Personnel Did Not Have Appropr iate Resources to Conduct Background
                    Checks                                                                             10
                    Military and Civilian Personnel Placed at Security Risk _                          11
                    Naval Criminal Investigative Services Concerned with Accuracy and Reliability of
                    Rapidgate _                                                                        13
                    Management Comments on the Report                                                  13
                    Recommendations, Management Comments, and Our Response                             14

                    Finding B. NCACS Projected Costs Not Supported                                     18
                    Costs Not Identified or Properly Represented                                       18
                    CNIC Cost Claims Unreliable and Unsubstantiated                                    19
                    NCACS Costs are Unknown                                                            20
                    Recomme11dations, Management Comments, and Our Response                            21

                    Finding C. CNIC Circumvented Competitive
                    Contracting Requirements                                                           23
                    Contractor Competition is Required                                                 23
                    Rapidgate Procurement History                                                      23
                    Prime Contractor Directed to Enter Into Unauthorized Commitments                   24



iv   I DOD!fr2013-l34                               F~R ~FFIEIAL   M8E   ~NLY
                              FOR OFFICIAL l-ISE OHLY



CNIC Officials' Actions Restricted Full and Open Competition _ _ _ _ _ _ _ _ _ 26
Navy Lacks Contractual Coverage for Eid Passport Services                          26
Appropriate Contracting Authority Was Not Used                                     27
Navy Spent Over $1.1 Million in Potentially Unallowable Costs and Lacked Oversight and
Legal Recourse Against Eid Passport                                                 28
Conclusion _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ 28

Recommendations, Management Comments, and Our Response _ _ _ _ _ _ _ 29

Appendixes
Appendix A. Scope and Methodology - - - - - - - - - - - - - - - - - 32
   Use of Computer-Processed Data                                                  33
   Prior Coverage                                                                  33
Appendix B. Identified Contractor Companies and Amounts Cha rged for
NCACS-Remated Cos.ts _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ 35

Glossary _________________                                                         36

Management Comments
Department of the Navy Comments - - - - - - - - - - - - - - - - - 38

Acronyms and Abbreviations __________ 45




                              f?~R ~FFlCIAL   l-ISE ONLY                                 DODIG-2013-134   Iv
                                                FOR OFFIC!Ab USE ONLY                                                                 Introduction




Introduction
Objective
The objective of the audit was to determine whether the Navy Commercial Access Control
System (NCACS) is mitigating access control risks to Navy installations. See Appendix A
for a discussion of the scope and methodology and prior audit coverage.


Background
NCACS Overview
NCACS is an enterprise identity management a nd perimeter installation access control
solution used to manage commercial vendors, contractors, and suppliers1 requiring
routine access to Navy installations.                        NCACS was implemented by the Commander,
Navy Installations Command (CNIC), the office designated to oversee the physical
security of all Continental United States Navy installation perimeters. NCACS is managed
by the CNIC N3 Antiterrorism office (N3AT) and administered through a service
provider, Eid Passport, Incorporated (Eid Passport). Eid Passport used its access control
system, known as Rapidgate,Z to provide NCACS services. Eid Passport was designated
the responsibility to perform contractor background checks, manufacture RapidgaLe
credentials, and maintain information on contractors enrolled in Rapidgate accessing
Navy installations. The Rapidgate credential provided the contractor with unescorted,
recurring installation access.


Navy Contractor Credentialing
Chief of Naval Operations Instruction (OPNAVINST) 5530.14E, "Navy Physical Security
and Law Enforcement Program;' January 28, 2009, change 1, April 19, 2010, directs
elimination of local credentials but allowed supplemental credentialing systems to
be used as an additional level of access control security not presently afforded by the
Common Access Card.

In July 2010, CNIC issued Notice3 5530, "RAPIDGate Implementation for Non-Common
Access Card (CAC) Contractors/Vendors Program Within CONUS Regions, Navy Region
Hawaii and Joint Region Marianas," to implement Rapidgate as the standard identity
management and perimeter installation access control solution for contractors not

 1
     For the purpose of this report, commercial vendors, contractors, and supplle·rs will be referred to as "contractors."
 2
     "RAPIDGate" is a registered trademark of Eid Passport, Incorporated.
 '   According to the OPNAVINST 5215.17, "Navy Directives ISSl'Cince System," June 13, 200'5, a notice is a directive that has a
     one-time or brief nature and is not permitted to rema in in effect for longer than 1 year.




                                                FOR OFFIEUrb USE ONLY                                                              DODJG-2013·134   It
Introduction                                            FOR OFFIC!Ab USE ONLY



                    authorized a Common Access Card. In order to avoid the appearance of endorsing
                    Rapidgate, Eid Passport's trademarked product, in May 2011, CNIC updated and issued
                        Notice 5530, to rename its standard installation access control solution to NCACS. In
                    July 2012, CNIC updated and issued Notice 5530, which identifies acceptable forms of
                    identification for contractors requiring physical access to Navy installations, including:

                                • Federal and DoD-issued credentials, including the Personal Identity
                                  Verification (PIV) credential or Transportation Worker Identification Card,

                                • Rapidgate credentials, and

                                • Local installation passes.

                    According to CNIC Notice 5530, contractors not authorized to receive a Federal or DoD
                    issued credential could request participation in the Navy's NCACS program to obtain a
                    Rapidgate credential. If a contractor employee elects not to participate in NCACS, the
                    individual employee may apply for a locally issued pass providing 1 day of installation
                    access. Each individual employee applying for a locally issued daily pass must be
                    processed through the installation Pass and Identification office, present valid forms
                    of identification, and undergo required background vetting by installation security
                    personnel.


                    Rapidgate Enrollment Process
                        NCACS is a voluntary program that allowed contractors recurring installation access.
                    To enroll in Rapidgate, the contractor company is required to obtain verification from
                    a designated NCACS installation sponsor. Once verified and approved, the contractor
                    company then pays Eid Passport an enrollment fee of $199 annually for access to a
                    single installation, or $249 annually for access to multiple installat ions. If the contractor
                    employee chooses to participate in NCACS, the employee registers at a Rapidgate kiosk for
                    installation access. Eid Passport requires an additional enrollment fee for each contract or
                    employee that registers for Rapidgate. An employee can receive a Rapidgate credential
                    that provides installation access for 90 days or 1 year fo r the following enrollment fees:

                                • $159 for 1 year of access to a single installation,

                                • $199 for 1 year of access to multiple installations, or

                                • $5Y for YO days of access to a single installation.

                    After receiving the contractor employee's enrollment fee, Eid Passport's third-party
                    vendors perform public record checks using publicly accessible databases. However,




2   I DODfG-20 13-134                                   t<e~   eFFlEIAL USE ONLY
                                FOR OFFICIAL l.xJ9E ONLY                                   Introduction



Eid Passport stated, "not all public records are up-to-date, complete, accurate, or
available." Before the public record checks are completed, contactor employees enrolled
in Rapidgate can obtain temporary installation access for up to 28 days. Contractor
employees present the installation's Pass and Identification Office with a Rapidgate
enrollment receipt and personal identification to obtain interim access until they are
authorized or denied participation in Rapidgate.

After Eid Passport determines the contractor employee passed the public record check,
it provides the installation(s) with the employee's Rapidgate credential for issuance.
The Rapidgate credential is valid for up to 5 years but only remains active for up to
1 year at a time. To keep the Rapidgate credential active for another year, Eid Passport
requires contractor employees to pay an annual fee and undergo a renewal background
check. In addition to the renewal background checks, contractor employees are also
subject to periodic public record checks. These periodic checks search limited public
records for changes in the employee's criminal history since the previous background
check. However, if Eid Passport determines the contractor employee failed the public
record check, the employee has the option to submit a waiver request to the installation
commanding officer. The commanding officer reviews the waiver request and failed
public record check to determine whether the installation accepts the risk of granting
the contractor employee installation access. If Lhe commanding officer accepts the
associated risk, the employee can participate in NCACS and is granted a Rapidgate
credential allowing unescorted access to the installation. If the commanding officer
does not accept the risk, the contractor employee cannot participate in NCACS. See
Figu re 1 on page 4 for a diagram of the NCACS participation process.




                                FOR 8FFIEIAb l.xJSE ONLY                               DODJG-2013·134   I3
Introduction                                                      FOR OFFICIAL l-ISE OHLY



                    Figure 1. NCACS Participation Process

                                                                        Company does not         ____.         Contractor employees
                                                                       participate in NCACS                   request daily passes for
                                                                                                                insrallaaio11 access



                                                                           Company obmins installation
                                  Company participates in       ---+      sponsorship and pays enrollment
                                         NCACS                                     fee to Eid Passpon




                                     Employee enrolls into                                                            Employee provides Pas.•
                                                                              Employer/Employee                       and Identification Oftlce
                                        Rapidgate at the
                                    ins1allarion kiosk in rhe
                                                                             pays'llnrollmem iee to       --+         with proof of enrollment
                                                                            Eid Passpon nnd publ;c                   and personal identification
                                    Pass and ldenti ficntion                record check is initiated
                                              Otlicc                                                                    to obtain a temporn.ry
                                                                                                                             28-day pass




                                                                       Eid Passpon perfOI'ms background
                                                                         check us~ng third-party vendor




                                     Eid Passport notifies contractor employee                     Eid Passport notifies contractor of failed
                                      that ·the installation has their Rapidgate                             background cheek
                                                credemial for issuance



                                                                                                    Employee has the option to apply for a
                                       Pa!iS and Identification Office issues                          waiver to access in$1allalion
                                      Rapjdgarc crcdenriul to cont:mc1or with
                                           proper personal idenfification


                                                                                                   Navy installation conunander reviews
                                                                                                   Miver request and approves or denies
                                                                                                    contractor insrallation access through
                                                                                                                  Raptdgate




                    Review of Internal Controls
                    DoD    Instruction      5010.40, "Managers'                             Internal Control                     Program           Procedures,"
                    May 30, 2013, requires DoD organizations to implement a comprehensive system
                    of internal controls that provides reasonable assurance programs are operating as
                    intended and to evaluate the effectiveness of the controls.                                                   We identified internal
                    control weaknesses for the Navy. In attempt to reduce access control costs, CNIC did
                    not follow Federal credentialing standards and DoD contractor vetting requirements
                    and did not provide 7 of the 10 installations visited the appropriate resources and
                    cap·a bilities to conduct required contractor background checks.                                                               Furthermore,
                    CNIC N3AT did not perform a comprehensive business case analysis (BCA) and issued
                    pohcy that prevented transparent accounting for actual NCACS costs. Additionally,
                    CNIC N3AT did not have contracting authority and developed a certification of compliance
                    (COC) as an admin-istrative approach to maintain a relationship with Eid Passport. We
                    will provide a copy of the report to the senior Navy official responsible for internal
                    controls.


4   I DODfG-20 13·134                                             f9R 9FffEUrb HS8 OPH:Y
                                  POR OPPIEIAL t1~E ONI::Y                                       Finding A




Finding A
NCACS Did Not Effectively Mitigate Access Control Risks
for Contractors Entering Navy Installations
The Navy Commercial Access Control System, Rapidgate, did not effectively mitigate the
access control risks of contractors accessing Navy installations. Specifically, numerous
contractor employees enrolled in Rapidgate received interim installation access and
Rapidgate credentials without having their identities vetted through mandatory
authoritative databases, such as the National Crime Information Center (NCIC)
database and the Terrorist Screening Database.        Furthermore, as an alternative to
NCACS, contractor employees could obtain a local daily pass without having their
identities vetted through NCIC and the Terrorist Scree ning IDatabase. This occurred
because-in an attempt to reduce access control costs-CNIC did not:

         • follow Federal credentialing standards and DoD contractor vetting
              requirements a nd

         • provide 7 of the 10 installations visited with the appropriate resources and
              capabilities to conduct required contractor background checks.

As a result, 52 convicted felons received routine, unauthorized access to Navy
installations for 62 to 1,035 days since Eid Passport's initial public record checks did not
identify the felony convictions. This placed military personnel, dependents, civilians,
and installations at an increased security risk.



Requirements to Vet Contractors Accessing Navy
Installations
Homeland Security Presidential Directive 12, "Policy for a Common Identification
Standard for Federal Employees and Contractors," August 27, 2004, requires that
all Government employees and contractors who require routine physical access to
Government facilities and insta1lations receive a standard and secure identification
credential.     In accordance w ith Homeland Security Presidential Directive 12, the
Department of Commerce's National Institute of Standards and Technology issued the
Federal Information Processing Standard 201, "Personal Identity Verification (PIV) of
Federal Employees and Contractors," change notice 1, March 2006, which identifies the
PIV credential as the standard Federal identification credential. The PIV credential is
a secure identification credential that Federal employees and contractors can use to




                                  POR OFFtEIAL t1SE ONLY                                   DODJG-2013·134   I5
Finding A                                                       FOR OFFIC!Ab USE ONLY



                   gain access to federally controlled facilities and installations. According to Office of
                   Management and Budget Memorandum 05-24, "Implementation of Homeland Security
                   Presidential Directive (HSPD) 12 - Policy for a Common Identification Standard for Federal
                   Employees and Contractors," August 5, 2005, (OMB Memorandum 05-24). Government
                   employees and contractors requiring routine physical access to an installation for greater
                   than 6 months must receive a PIV credential.

                   DoD Directive Type Memorandum (DTM) 09-012, "Interim Policy Guidance for DoD
                   Physical Access Control;' December 8, 2009, incorporating change 3, March 19, 2013,
                   establishes identity vetting standards across DoD. DTM 09-012 aligns with Federal
                   vetting standards to require that PIV-eligible contractors receive a National Agency
                   Check with Written Inquiries background investigation prior to determining fitness.
                   DTM 09-012 requires that contractors without a Federal PIV or DoD-issued credential4
                   be vetted through NCIC and the Terrorist Screening Database to gain unescorted access
                   to DoD installations and stand-alone facilities. According to DTM 09-012, these access
                   control standards shall be implemented as resources, Jaw, and capabilities permit.


                   Contractor Employees Enrolled in Rapidgate Received
                   Interim Installation Access Without a Background
                   Check
                   CNIC policy provided contractor employees enrolled in Rapidgate interim installation
                   access before a background check was completed. CNIC Notice 5530 allows contractors
                   who registered with NCACS at the installation's Rapidgate kiosk, without a completed
                   background check, to obtain temporary installation access for up to 28 days. For example,
                   9 of the 10 Navy installations visated allowed temporary access to contractor employees
                   enrolled in Rapidgate prior to completing a background check. According to installation
                   security personnel, after registration at the installation's Rapidgate kiosk, contractor
                   employees were only required to present a Rapidgate enrollment receipt to qualify for
                   28 days of unescorted access. However, the employee's claimed identity was not vetted
                   against mandatory authoritative databases. By giving contractors interim installation
                   access bef.ore vetting them through the mandatory authoritative databases, the NCACS
                   process and CNIC Notice 5530 violated DTM 09-012.




                    4
                        A DoD-issuecl credential includes the Common Access Card.




 I
6 DODIG-2013-134                                                FEJR EJFFIEIAb ~SE EJNH/
                                FOR OFFICIAL l.xJ9E ONLY                                          Finding A




Contractor Employees Received Credentials Without
Being Vetted Through Authoritative Databases
Eid Passport vetted contractor employees enrolled in Rapidgate through the use of
public record checks. DTM 09-012 requires an authorized Government representative to
conduct identity-proofing and vetting of a claimed identity to determine an individual's
fitness for installatjon access. Only personnel delegated by the installation commander
shall perform access control duties, including identity proofing, vetting and determination
of fitness, and access authorization and privileges. However, CNIC policy appointed
Eid Passport to manage the NCACS program through Rapidgate and determine the
fitness of contractor employees for installation access. CNIC delegated to Eid Passport
the responsibility to collect the contractor employee's enrollment information and vet the
employee through public record databases. After Eid Passport determined the contractor
employee passed the public record check, Eid Passport provided Navy installations with
the employee's Rapidgate credential for issuance. Navy installation officials relied on
Eid Passport's adjudication of contractor employees and only validated an employee's
identity through proof of ro, such as a driver's license, and proof of employment to issue
the Rapidgate credential.

In addition, the public record databases used by Eid Passport were unreliable. Eid
Passport acknowledged, "neither the Service Provider nor its screening providers can
guarantee the completeness or accuracy of the data obtained," and the results of the
checks were subject to the reliability of the public records searched, which were not
always up-to-date. CNIC N3AT officials approved the Rapidga te Statement of Work and
knowingly accepted the security risks associated with the accuracy and reliabihty issues
of the public record! checks. CNIC N3AT officials stated performing
public record checks through Rapidgate improved the Navy's
previous physical access controls, which did not include                  Eid
                                                                        Passport
any contractor background checks.           Furthermore,            acknowledged,
CNIC Notice 5530 states that an NCACS objective is to             "neither the Service
enhance installation safety and security.      However,        Provider nor its screening
                                                                providers can guarantee
due to the unreliable accuracy of vetting contractors
                                                                  the completeness or
through the Rapidgate system, the claimed reductions              accuracy of the data
in security risk provided installation commanders with                 obtained,"
a false sense of security, leaving installations exposed to
potentially hostile actions.

(F8~8)   Furthermore, contractor employees obtained Rapidgate credentials that were
active for 1 year, regardless of the length of time a contractor required installation
access. According to OMB Memorandum 05-24, Government employees and contractors


                                F~R   OFFtciAL l.xJSE ONLY                                  DODJG-2013·134   I7
Finding A                                           FOR OFFICIAL l.xJ9E ONLY



                   (fQijQ) requiring routine physical access to an installation for greater than 6 months
                   must receive a PIV credential. To obtain a PIV credential, the employee, at a minimum,
                   must undergo a National Agency Check with Written Inquiries background investigation.
                   The investigation provides the Government with assurance that an individual meets
                   the fitness requirements for accessing federally controlled facilities. However, once a
                   contractor employee enrolled in Rapidgate passed the initial Eid Passport public record
                   check and paid the associated 1-year fee, the employee received unescorted installatmon
                   access for 1 year. For example, a                                          contractor was
                   required to perform deliveries on the installation with a service period of approximately
                   1 year. To obtain installation access, the contractor's employees participated in NCACS
                   and received Rapidgate credentials. However, the employees required routine physical
                   access for greater than 6 months and should have received PIV credentials with the
                   subsequent background investigations, as required by OMB Memorandum 05-24.

                   (fQijQ) Additionally, seven Navy installations granted access to contractor employees
                   without vetting employee identities through NCJC and the Terrorist Screening
                   Database. DTM 09-012 requires that contractors without a Federal PIV or DoD-issued
                   credential be vetted through the NCIC database and the Terrorist Screening Database
                   to gain unescorted access to DoD installations and stand-alone facilities. According to
                   DTM 09-012, Lhese vetling standards shall be implemenled as resources and
                   cap,a bilities permit. Of 10 installations visited, 7 Navy installations did not vet all
                   contractor employees through NCIC before issuing Rapidgate credentials and daily
                   passes.   For example,                                    only performed local database
                   searches to vet contractor employees obtaining daily passes. Local databases used by
                   installations included Sex Offender RegEstration and Notification Act and local no-entry
                   lists. Contractor employees obtaining Rapidgate credentials to access the installation
                   received the public record checks performed by Eid Passport's third-party vendor.
                   However, none of the contractor employees entering the installation were vetted
                   against NCIC and the Terrorist Screening Database, as required.

                   (F9HQ) The remaining three installations vetted all contractor employees through the
                   NCIC database before issuing Rapidgate credentials and daily passes. For example-
                                             had the capability to access NC IC through the Navy Region Mid-
                   Atlantic Security Office and required all contractor employees accessing the installation
                   to undergo an NCIC check before issuing a IRapidgate credential or a daily pass.
                   Navy Region Mid-Atlantic Security Office personnel stated that, using NCJC, they identified
                   contractors with felony charges not found by the Rapidgate public record checks and
                   denied access to these contractor employees. If the installation solely relied on the
                   public record checks, these contractors would have otherwise been granted a Rapidgate
                   credential that facilitated unescorted installation access.


 I
8 DODIG-2013-134                                    FeR OFFtCIAL l.xJSE ONLY
                                fi'eJf( eJfi'FICIAL l-J8E eJP4LY                                     Finding A




CNIC Attempted to Reduce Access Control Costs
CNIC attempted to reduce its access control costs through NCACS. According to a Navy
inst ruction, CNIC is responsible ifor providing the support and funding for the physical
security of Navy installations. To reduce CN IC's physical security costs, CNIC increased
contractor participation in NCACS by issuing NCACS policy that did not follow Federal
contractor employee credentialing and vetting requirements.

According to OMB Memorandum 05-24, Government employees
and contractors requiring routine physical access to an                       CNIC
                                                                           restricted
installation for greater than 6 months must receive a PmV
                                                                         the number of
credential and undergo a National Agency Check with                 c ontractors eligible to
Written Inquiries background investigation. However:,              re ceive a PIV credential
CNIC's NCACS implementation policy included additionam                and the subsequent
                                                                          background
access requirements for contractor PIV credential                        investigations.
eligibility and increased the number of contractors eligib le
to receive a Rapidgate credentiaL According to CNIC Notice 5530,
a contractor must require both physical access to a Navy installation and logical access
to a Navy or DoD network to be eligible to receive a DoD PIV credential.                Since
CNIC included the requirement for contractors to require logical access to receive
a PIV credential, CNIC restricted the number of contractors eligible to receive a
PIV credential and the subsequent background investigations.

By restricting PlV credential eligibility requirements, CNIC increased the number
of contractors eligible to receive a Rapidgate credential and minimized CN IC's costs
to perform contractor credentialing and vetting.            According to CNIC Notice 5530,
contractors determined by CNIC to be ineligible for a PIV credential can only gain
reoccurring installation access by participating in NCACS. Contractors participating
in NCACS must pay Eid Passport to perform background vetting and create
Rapidgate credentials.   Additionally, the Rapidgate Statement of Work states that
contractors who participate in NCACS are only vetted using public record checks
to obtain unescorted installation access. CNIC should discontinue the use of Rapidgate
and any other system that exclusively uses publicly available databases to vet and
adjudic<1te contr<1ctor employees accessing N<1vy installations and implement C:l system
that meets Federal and DoD requirements for background vetting using the mandatory
databases.   Additionally, CN IC should revise NCACS policy to aJign with Federal
and DoD contractor vetting and credentialing requirements to provide contractors
with the required credentials and background investigations.




                               FEJR EJFFIEIAb ~SE 8P4LY                                        DODJG-2013·134   I9
Finding A                                       FOR OFFIC!Ab USE ONLY



                Installation Personnel Did Not Have Appropriate
                Resources to Conduct Background Checks
                CNIC did not provide 7 of 10 Navy installations visited the appropriate resources and
                cap,a bilities to conduct mandatory NCIC and Terrorist Screening Database checks. DoD
                DTM 09-012 requires contractors without a Federal PIV or DoD-issued credential to be
                vetted through authoritative databases before granting unescorted installation access,
                as resources and capabilities permit.    DTM 09-012 states installation Government
                representatives must query NCIC and the Terrorist Screening Database to vet and
                determine the fitness of a contractor employee. According to a Navy instr uction, CNIC
                is responsible fo r providing the support and funding for the physical security of Navy
                installations.

                (FQWQ) Of the 10 Navy installations visited, 7 did not have access to NCIC and the
                Terrorist Screening Database to properly vet all contractor employees. CNIC N3AT
                officials stated that they provided installations fund ing to perform NCIC and Terrorist
                Screening Database checks.      However, installation security personnel stated the
                installations lacked the resources or capability to conduct NCIC and Terrorist
                Screening Database checks on all contractor employees.        For example, installation
                security personnel at
                stated they did not have the resources to screen every contractor employee through
                NCIC before issuing a Rapidgate credential or daily pass. The installation also did
                not have the capability to access the NCIC database. Additionally, installation security
                personnel at                                         did not have the capability to
                access NCIC.     Specifically, personnel stated that they did not have NCIC terminals
                at the installation to connect to the NCIC database. See Table 1 on page 11 for an
                installation breakdown of contractor vetting through NCIC and the Terrorist Screening
                Database. CNIC should provide the seven installations identified with the resources
                and capabilities to access NCIC and the Terrorist Screening Database to vet contractors
                requesting access to Navy installations. Furthermore, CNIC should establish a process to
                identify which remaining Navy installations need resources and capabilities to conduct
                NCIC and Terrorist Screening Database checks before granting contractor employees
                installation access.




  I
10 DODIG-2013-134                               FOR OFFlEIAL USE ONhY
                                 FOR OFFICIAL (.ooJ9E OHLY                                     Finding A



fF9H€Jj Table 1. Installation Contractor Vetting Through NCIC and the Terrorist Screening
Database




Military and Civilian Personnel Placed at Security Risk
There were 52 convicted felons who received routine access to Navy
installations even though their felony convictions occurred
                                                                        There were
before they were issued a Rapidgate credential. This placed            52 convicted
military personnel, dependents, civilians, and installations at         felons who
an unacceptable level of safety and security risk. Although          received routine
                                                                      access to Navy
CNIC N3AT officials claimed NCACS increased installation               installations.
security over the previous approach of providing no contractor
employee background checks, NCACS provided installation
commanders with a false sense of security. Contractor employees
with prior felony convictions received Rapidgate credentials without the knowledge
and approval of the installation commander. Eid Passport public record checks showed
that 53 individuals failed a renewal or periodic check. Of the 53 public record checks,
52 contractor employees were aHowed installation access before Eid Passport identified
their felony convictions, even though their felony convictions occurred before the
contractor was issued a Rapidgate credential. The felony convictions were not identified
during the initial Rapidgate public record checks, even though the felonies identified
occurred an average of 13 years: prior to passing the initial Rapidgate screening. The
remaining public record check was a renewal check that identified the individual had a




                                 FOR OFFICIAL (.ooJSE ONLY                              DODIG-2013-134   Ju
Finding A                                             FOR OFFIEL'tb HSE ONbY



                Social Security Number that was invalid, belonged to a deceased person, was listed in a
                Tme Name Fraud Alert, or belonged to another individual. However, this Social Security
                Number issue was not identified on the initial Eid Passport public record check. and the
                individual had installation access for 345 days before this issue was identified. In every
                CNIC region we visited, we identified contractors enrolled in Rapidgate who were given
                installation access before felony convictions were identified. See Table 2 for a regional
                breakdown.

                Table 2. Rapidgate Contractors Accessing Navy Installations with Previously Unidentified
                Felonies

                                                                                           Rapidgate Contractors
                                                                                              with Previously
                                                                                           Unidentified Felonies
                                                                 Number of Installations   Accessing Installations
                                   CNIC Navy Region                    Visited                    Visited

                    Navy District Washington                                2                         1
                    Mid-Atlantic                                            2                        12
                    South East                                              2                         8

                    Midwest                                                 1                        15
                    North West                                              1                         6
                    South Wesl                                              2                        10
                     Total                                                 10                       52




                For example, one contractor employee was first issued a Rapidgate credential in June 2009.
                According to the public record check performed by Eid Passport's third-party vendor, the
                employee failed a Rapidgate renewal check in April 2012, based on a felony conviction
                for "conspiracy to distribute.-.cocaine base." This felony conviction occurred in 2000 but
                was not identified by Eid Passport's check until the employee failed the renewal check in
                April 2012. This contractor employee had unes-corted access to a Navy installation for
                1,035 days before the felony conviction was identified. Furthermore, another contractor
                employee was issued a Rap idgate credential in October 2011 and failed a periodic public
                record check in January 2012. The individual failed the public record check based on a
                felony conviction of "indecent liberties with a child" that occurred in 1987. Before the
                felony was identified, the contractor employee had 91 days of unescorted access to a
                Navy installation. Given that child development centers, schools, and family housing are
                located on many Navy installations, accurate vetting of contractor employees is essential
                to ensure the safety of children on Navy installations.




  I
12 DODIG-2013-134                                     FEJR EJFFIEIAb HSE EJPH:Y
                                                FOR OFFIC!Ab USE ONLY                                                  Finding A



Additional examples of unidentified felony convictions in the public record checks
included drug possession, assault, theft, and throwing a missile5 at an occupied
vehicle. Installation commanding officers were unaware that the Rapidgate system had
granted contractor employees with prior fe~ony convictions reoccurring access to their
installations. The prior felony convictions should have been identified by the initial
public record checks performed on these employees. Instead, the felonies were not
identified until subsequent Rapidgate public record checks, such as annual renewals
and periodic checks, were performed by Eid Passport's third-party vendors. Therefore,
CNIC N3AT provided installation commanders with a false sense of security by
knowingly accepting the security risks associated with public record databases that were
not all "up-to-date, complete, accurate, or available."


Naval Criminal Investigative Services Concerned with
Accuracy and Reliability of Rapidgate
(~Q\JQ)       According to Naval Criminal Investigative Services Headquarters officials,
the Naval Criminal Investigative                                                 Field Office expressed concern
with the accuracy and reliability of Rapidgate background vetting. The Naval Criminal
Investigative Services -                               Field Office identified multiple criminal incidents,
such as convictions for cocaine distribution, associated w ith Rapidgate contractor
background vetting and initiated an inquiry into the Rapidgate operations at the
                                           Based on the identified incidents, the special agent leading
the inquiry contacted SecurTest, one of the third-party background screener.s used by
Eid Passport. The agent requested that SecurTest provide details on how background
vetting is accomplished for non-DoD applicants participating in Rapidgate. According
to the special agent, SecurTest allegedly queried the applicants against sex offender
registries and Clerk of the Court records in the locations the                           app~icant   disclosed to
have resided. Thus, according to the special agent, the background vetting is not
nationwide and solely relles on the integrity of application information. Naval Ctirninal
Investigative Service~ Field Office personnel stated that they plan to run over
3,000 Rapidgate cardholders through NCIC to determine whether any convicted felons
were undetected and granted installation access.


Management Comments on the Report
The Department of the Navy, through the Deputy Under Secretary of the Navy (Plans, Policy,
Oversight, and Integration), consolidated the management comments from the Director,


 5
     A missile is any object thrown or projected, such as a stone or a bullet.




                                                FSR 8FFIEIAb ~SE 8NLY                                           DODIG-2013-134 J B
Finding A                                       FOR OFFIC!Ab USE ONLY



                Program Analysis and Business Transformation and Director, Services Acq uisition, Office
                of the De puty Assistant Secretary of the Navy (Acquis ition a nd Procurement); Director,
                Shore Readiness, Deputy Chief of Naval Operations (Fleet Readiness and Logistics) ;
                Deputy Commander, Navy Installations Command; and Associate Director of Contracts,
                Naval Sea Systems Command regarding our recommendations:. CNIC requested further
                discussion on the d isposition of Recommendations A.1 - A.3 and Recommend ation C.3.
                We held discussions with CNIC and considered those discussions in the final preparation
                of our repor t.


                Recommendations, Management Comments, and Our
                Response
                Recommendation A.l.
                We recommend the Commander, Navy Installations Command, immediately
                discontinue the use ofRapidgate and any other system that exclusively uses publicly
                available databases to vet and adjudicate contractor employees access ing Navy
                installations, and replace it with a system or process that meets Federal and DoD
                requirements for background vetting.


                Commander, Navy Installations Command Comments
                The Deputy Commander, Navy Installations Command, responding for the Commander,
                Navy Installations Command, disagreed with the recommendation.                 The Deputy
                Commander stated NCACS standards meet Federal and DoD requirements for background
                vett ing and that the Navy currently conducts NC IC checks and final credential issuance.
                Additionally, the Deputy Commander stated that prior to accepting a commercial
                credential source for NCACS, the credentialing firm must demonstrate full compliance
                with Federal, DoD, and Navy standards, including DTM 09-012. Finally, the Deputy
                Commander stated that discontinuing NCACS will ensure long li nes at Navy access points,
                resulting in productivity loss for contractors doing business on Navy installations, and
                would require hiring additional civil servants to work in base pass offices.


                Our Response
                Comments from       the Deputy Commander,         Navy Installations Command, were
                nonresponsive.     NCACS is administered by a commercial credentialing source,
                Eid Passport, which uses Rapidgate to vet contractor employees accessing Navy
                installations. As noted in our dlraft report, Rapidgate relies exclusively on unreliable
                public remrd databases.         CNIC N3AT's Program Director acknowledged that




  I
14 DODIG-2013-134                               FOR OFFIEUrb USE ONLY
                                 FOR OFFIC!Ab USE ONLY                                              Finding A



Eid Passport does not have the capability to perform NCIC checks, and that Navy
installation s should be performing an NCIC check prior to providing contractors an
NCACS credential. Also, as noted in our draft report, not all installations had access to the
NCIC database_ Since Eid Passport does not have the capability to perform NCIC checks
to vet contractor employees, and not all Navy installations nave the ability to access
NCIC, NCACS is not fully compliant with DoD background vetting standards outlined in
DTM 09-012.

Additionally, the Deputy Commander stated that if NCACS was discontinued, additional
civil servants would need to be hired to work at the base pass offices. However, Navy
Region Mid-Atlantic successfully used only three full-time employees to administer NCIC
screenings for all contractors accessing 15 Navy installations. Navy Region Mid-Atlantic
personnel reported that the NCIC checks resulted in the identification of and subsequent
denial of installation access fo r felons not identified by Rapidgate. Therefore, based on
Rapidgate's unreliable public record checks, Rapidgate could be eliminated resulting in
potential cost savings for the Navy. We request that the Commander, Navy Installations
Command, r econsider the recommendation and provide additional comments on the
final report.


Recommendation A.2.
We recommend the Commander, Navy Installations Command, revise
Instruction 5530.14, "CNIC Ashore Protection Program," July 7, 2011, and
Notice 5530, "Navy Commercial Access Control System Within Continental
United States Regions. Navy Regi.on Hawaii, and Joint Region Marianas,"
July 5, 2012, to require contractor employees requiring routine physical access
to Navy installations for greater than 6 months receive the DoD Personal
Identity Verification credential with the National Agency Check with
Written Inquiries.


Commander, Navy Installations Command Comments
The Deputy Commander, Navy Installations Command, responding for the Commander,
Navy Installations Command, disagreed with the recommendation.                 The Deputy
Commander stated CNIC is following DoD and congressional guidance to accept identity
credentials from non-Federal issuers.      The Deputy Commander stated that CNIC's
understanding of current policy is that both requirements-physical access to an
installation for greater than 6 months and logical access to the Navy's networks-must
be met for receipt of a Common Access Card. Additionally, the Deputy Commander stated
NCACS vetting combined with the NCIC checlk encompasses those checks conducted via a
National Agency Check with Written Inquiries.


                                 FOR OFFICIAL USE ONhY                                      DODIG-2013-134 J 1s
Finding A                                         FOR OFFIC!Ab USE ONLY



                 Our Response
                 Comments from the Deputy Commander, Navy Installations Command, were
                 nonresponsive. If it was the Deputy Commander's intent to indicate compliance with DoD
                 and Congressional guidance by accepting Personal Identity Verification Interoperable
                 (PIV-1) credentials from non-Federal issuers as an alternative to issuing PIV credentials,
                 then we disagree. As noted in our draft report, OMB Memorandum 05-24 states that
                 Government employees and contractors requiring routine physi.cal access to an
                 installation for greater than 6 months must receive a PIV cred ential. According to the
                 Federal Chief Information Officer Council, "Personal Identity Verification Interoperable
                 Frequently Asked Questions," June 28, 2010, agencies cannot accept PIV-1 cards issued
                 by a contractor's company in lieu of issuing PIV cards to those individuals. Specifically,
                 "individuals who fall within the applicability of HSPD-12, including Federal contractors
                 requiring routine access to Federally-controlled facilities or Federally-controlled
                 information systems for a period of time greater than 6 months, must continue to be
                 issued PIV cards by the Federal Government." The Office of Personnel Management issued
                 "Final Credentialing Standards for Issuing Personal Identity Verification Cards under
                 HSPD-12," July 31, 2008, which provides Government-wide PIV credentialing standards
                 for employees and contractor personnel. A senior program analyst, speaking on behalf of
                 the Office of Personnel Management's Federal Investigative Services Division, confirmed
                 that contractor personnel requiring only routine physical access to federally controlled
                 faci.lities for greater than 6 months are required to be issued a PIV credential. Therefore,
                 CNIC should issue PIV credentials, not Rapidgate credentials, to contractor employees
                 who only require routine physical access to Navy installations for greater than 6 months.

                 Additionally, the Deputy Commander stated that NCACS vetting combined with the NCIC
                 check encompasses those checks conducted via a National Agency Check with Written
                 Inquiries. However, as noted in our draft report, the public record databases used by Eid
                 Passport were unreliable, and OM 8 Memorandum 05-24 states employees and contractors
                 must undergo a National Agency Check with Written Inquiries background        investigat~on

                 to obtain a PIV credential. We request that the Commander, Navy Installations Command,
                 reconsider the recommendation and provide additional comments on the final report.


                 Recommendation A.3.
                 We recommend, the Commander, Navy Installations Command:




16 1DODIG-2013-134                                FEJR EJFFIEIAb ~SE EJNLY
                                 FOR OFFICIAL l.xJ9E ONLY                                        Finding A



           fFQYQ).                    the resources and capabilities needed
           to access National Crime Information Center and the Terrorist
           Screening Database.

        b. Establish a process to identify which instaUations need resources
           and capabilities to access the National Crime Information Center and
           the Terrorist Screening Database for contractor background vetting
           and provide Installation Commanders with needed resources and
           capabilities.

Commande~ Navy Installations Command Comments
The Deputy Commander, Navy Installations Command, responding for the Commander,
Navy Installations Command, disagreed with the recommendation.                  The Deputy
Commander stated CNJC already provides access control resources and capabilit ies
to Navy installations. The Deputy Commander stated Navy installations are generally
NCIC-capable, and NCACS is in the process of attaining even greater and more-faci litated
NCIC access through process improvements.           Furthermore, the Deputy Commander
stated that the Inspector General's conclusions regarding NCJC-check capability of Navy
installations were based upon interviews of persons who did not have full knowledge of
the system, such as gate guards who are not responsibiP. for cr~>dentia Iing.


Our Response
Comments from        the Deputy Commander,          Navy   Installations Command, were
nonresponsive. As noted in our draft report, of the 10 Navy installations visited, 7 did
not have access to the NC IC database. Furthermore, during our audit, N3AT's Program
Director acknowledged that not all Navy installations were performing NCIC checks
prior to providing the NCACS credential to contractor employees. NCACS credentials
provide contractors the ability to gain unescorted installation access. As noted in our
draft report, DoD DTM 09-012 requires contractors without a Federal PIV to be vetted
through the NCIC database to gain unescorted access to DoD installations. Given that
the DoD DTM 09-012 established the NCIC check requirement in December 2009, the
required NCIC capability should already be established at all Continental United States
Navy installations. Additionally, our report findings and conclusions regarding NCIC
check capabilities were based upon interviews with and documentation obtained from
installation security officers, security directors, physical security specialists, access
control officers, and N3 operations officers who were fully knowledgeable regarding the
stat:us of their installation physical security and access control capabilities. We request
that the Commander, Navy Installations Command. reconsider the recommendation and
provide ad ditional comments on the final report.



                                 FOR OFFICIAL l.xJSE ONLY                                 DODIG-2013-134 J 17
Finding B                                        FOR OFFIC!Ab USE ONLY




                 Finding B
                 NCACS Projected Costs Not Supported
                 CNEC N3AT misrepresented projected costs to operate NCACS as a no-cost, low-cost
                 solution. This occurred because CNIC NJAT d id not perform a comprehensive BCA
                 and issued policy that prevented transparent accounting for actual NCACS costs. As a
                  result, the Navy is unable to account for actual NCACS-related charges from contractor
                 companies. For example, we found that the !Navy has incurred NCACS-related charges of
                 at least $1.2 8 million for 17 of the 30,702 contractor companies enrolled. Additionally,
                 other DoD Components located on Navy-controlled installations and joint bases may be
                 inadvertently absorbing the costs of NCACS.



                 Costs Not Identified or Pr,o perly Represented
                 CNEC N3AT misrepresented the projected costs incurred by the Navy to operate NCACS.
                 CNEC N3AT marketed NCACS to DoD and the Navy as a no-cost,
                 low-cost access control solution. CNIC N3AT officials claimed
                  NCACS was Jow-cost because fees paid by the par ticipating               During
                                                                                        t he initial
                 contractors would serve as the primary source of revenue
                                                                                    implementation
                 for the service provider, Eid Passport. According to                of NCACS, Navy
                 CNEC N3AT, t he costs borne by the Navy for NCACS were          Co mmands exp resse d
                                                                                   concern over the
                  limited to providing phone lines, electrical power, and
                                                                                 po ssible cost impact s
                 space for Rapidgate kiosks. However, during the initial            associated with
                  implementation of NCACS, Navy Commands expressed                        NCACS.
                 concern over the possible cost impacts associated with NCACS.

                 At the request of t:he Shore Readiness Division (OPNAV N46), the Naval Air Systems
                 Command (NAVAIR) and Naval Supply Systems Command (NAVSUP) conducted cost
                 analyses and impact assessments for NCACS implementation.             Both the NAVSUP
                  memorandum, "Cost Analysis and Impact of RAPIDGatejNavy Commercial Access
                 Control System (NCACS) Implementation;' November 18, 2011, and the Naval Air Systems
                 Command, "NAVAIR Cost Analysis and ImpactofRAPIDGatejNCACS," November 21,2011.
                 concluded that the cost reportedly absorbed by contractors to obtain Rapidgate credentials
                 a re transferred back to the Navy in the form of h igher contract overhead costs and other
                 contract fees. Additionally, NAVSUP performed a detailed cost analysis comparing NCACS
                 and Common Access Cards, concluding NCACS credentials could potentially cost 10 times
                 as much as Common Access Cards over a 10-year period. Furthermore, one contractor




18 1 DODIG-2013-131                              r~R ~FFIEIAL   M8E   ~NLY
                                FOR OFFIC!Ab USE ONLY                                            Finding 8



working on the Joint Strike Fighter program stated it planned to increase the cost of its
contract approximately $1 million annually over a 5-year period! as a result ofNCACS. Due
to potential increased contract costs and the nature of the Joint Strike Fighter program,
the program officials determined! the contractor employees were eligible for issuance of
Common Access Cards as authorized under DoD policy.


CNIC Cost Claims Unreliable and Unsubstantiated
CNIC N3AT's low-cost claims were unreliable because CNIC N3AT did not perform a
comprehensive BCA and were unsubstantiated because they issued policy preventing
transparent accounting of NCACS costs. CNIC N3AT did not perform a comprehensive
BCA in response to the Shore Readiness Division (OPNAV N46) request for cost
analyses and impact assessments of NCACS. In November 2011, the Program Director,
CNIC N3AT, conducted an NCACS !BCA that concluded CNJC would realize a cost avoidance
exceeding $295 million over 5 years by utilizing the Rapidgate system.           However,
CNIC N3AT's BCA did not meet the BCA requirements contained in the Department of
the Navy Chief Information Officer Memorandum, "Required Use of T he Department of
The Navy (DON) Enterprise Information Technology Standard Business Case Analysis
(BCA) Template," june 30, 2011. The Department of the Navy BCA template includes
performance measures (baseline, target, and goal), operational impact, financial costs,
and savings projections based on an approved methodology. However, CNIC N3AT's
BCA did not include all the elements required by the Department of the Navy
Memorandum. For example, CNIC N3AT did not include a financial analysis of net present
value, break-even point, benefit cost rat io, and financial return on investment over the
life of the program in its BCA. Furthermore, CNIC N3AT's BCA analysis did not include
any non-financial benefits and risks associated with NCACS, such as interoperability,
efficiency, and reliability of the system. The Director, Shore Readiness, Deputy Chief of
Naval Operations (Fleet Readiness and Logistics), as the resource sponsor for CN JC, should
perform an independent BCA for NCACS in accordance with the Department of Navy
Chi·e f Information Officer requirements and determine the most efficient way forward.

Additionally, CNIC N3AT officials claimed that NCACS was a low-cost solution because
fees paid by the participating contractors would serve as the primary source of revenue
for the service provider. Despite lacking authority to direct the contract management of
other Navy commands, CNIC N3AT issued policy that prevented contractors from directly
charging Navy contracts for NCACS, which hindered accounting of actual program costs.
CNIC issued Notice 5530, "Navy Commercial Access Control System Within Continental
United States Regions, Navy Region Ha waii, and joint Region Marianas," July 5, 2012,
requesting that all contracts involving physical access to Navy insta llations include a




                                F~R ~FFlCIAL   USE   ~NLY                                 DDODEG·2013-134 19
Finding B                                           FOR OFFIE:Utb HSE OPH::Jl



                    provision that costs incurred by the contractor to obtain Rapidgate credentials are not
                    reimbursable as a direct cost to the Navy. However, CNIC Notice 5530 does not prohibit
                    contractors from indirectly charging for Rapidgate     credentia~ s.   reducing the visibility
                    of NCACS costs. CNIC N3AT officials acknowledged that costs would be borne by the
                    Navy component in indirect contract costs.

                    Furthermore, CNIC Instruction 5530.14, "CNIC Ashore Protection Program," July 7, 2011,
                   "applies NCACS requirements to all Navy facilities and non-Navy organizations p hysically
                    located on or aligned to U.S. Navy-controlled installations." DoD Components located
                    on Navy-controlled installations and joint bases that wish to have contractors receive
                    routine physical access without the hindrance of a daily pass are required to enroll in
                    Rapidgate. However, these DoD Components are not subject to the provision requiring
                    them to disallow contractors to charge for Rapidgate credentials. Therefore, other DoD
                    Components located on Navy-controlled installations and joint bases could be directly
                    or indirectly charged for NCACS participation. Because CNIC is not authorized to direct
                    commercial vendor contractmanagemen tforother Navy Commands and DoD Components,
                    the Assistant Secretary of the Navy (Research, Development, and Acquisition) should
                    review NCACS contract language concerning reimbursement of NCACS or Rapidgate
                    credential costs and take appropriate action.


                    NCACS Costs are Unknown
                    CNIC N3AT was not able to account for, or adequately project, NCACS costs to the
                    Navy. In its current state, the costs associated with NCACS are unknown but could be
                    exorbitant. For example, contractors charged the Navy indirectly for costs incurred to
                    participate in the NCACS program. We identified 17 contra ctors
                    that charged the Navy over $1.28 million for costs incurred              We
                   to purchase Rapidgate credentials through overhead                     identified
                                                                                      17 contractors that
                    or other indirect charges. See Appendix B for more              charged the Navy over
                    information on the evaluation of the 17 contractors             $1.28 million for costs
                   and associated cost. According to the NAVSUP cost                 incurred to purchase
                                                                                    Rapidgate credentials
                   analysis completed in November 2011, the NCACS
                                                                                     through overhead or
                    program had 9,657 companies and 64,924 contractor                   other indirect
                    employees enrolled. NAVSUP concluded that Eid Passport                 charges.
                   as the sole NCACS service provider was potentially earning
                    between $12 and $15 million annually for Rapidgate services provided to the Navy, which
                    coll!ld be charged back to the Navy as indirect costs. According to CNIC N3AT's "NCACS
                    In Action" report dated March 1, 2013, there were 30,702 companies enrolled with
                    298,204 NCACS participants. As of March 2013, NAVSUP concluded that Eid Passport




20   I DODIG-2013-131                               F~R ~FFIEIAL    M8E   ~NLY
                                 FOR OFFICIAL l.xJ9E ONLY                                       Finding 8



was realizing annual revenue of at least $53 million which could be indirectly charged
back to the Navy. Therefore, the Navy spent an unknown amount of funds while possib ly
taxing other DoD Components to pay for NCACS, a system that provides weak security
as discussed in Finding A with no valid contractual coverage as discussed in Finding C.
However, until the Navy receives agreement fmm other DoD Components and adjusts
poliicy to adequately address those possilbly affected by the implementation of NCACS, the
Navy will be unable to ensure non-Navy tenant activities and MWtary Services located on
Navy-controlled installations and joint bases do not inadvertently fund NCACS.


Recommendations, Management Comments, and Our
Response
Recommendation 8.1.
We r ecommend the Assistant Secretary of the Navy (Research, Development, a nd
Acquisition}, review the use of Navy Commercial Access Control System/Rapidgate
contra ct language concerning contractor reimbursement and take appropriate
action, if necessary.


Assistant Secretary of the Navy (Research, Development, and
Acquisition) Comments
The   DirectoJ~   Program Analysis and Business Transformation and Director, Services
Acquisition, Office of the Deputy Assistant Secretary of the Navy (Acquisition and
Procurement), responding for the Assistant Secretary of the Navy (Research, Development,
and Acquisition), agreed with the recommendation. The Director stated he will initiate
and complete a review of the Navy Commercial Ac-cess Control SystemjRapidgate
contract language to ensure contract language is consistent with the Federal Acquisition
Regulation (FAR) Subpart 31.2 by October 25, 2013. The Director stated he will take
appropriate action based on the review.


Our Response
Comments from the Director were responsive, and no further comments are required.


Recommendation 8.2.
We recommend the Director, Shore Readiness, Deputy Chief of Naval Operations
(Fleet Readiness and Logistics):




                                 FOR 8FFIEIAb ~SE ONLY                                   DDODEG·2013-134 21
Finding B                                           FQR 8FFICh'd:: t;"!3E 8P4LY



                            a . Obtain an independent compre hensive business case analysis for the
                               Navy Commercial Access Control System in accordance with Department
                               of the Navy Chief In formation Officer Memorandum "Required Use of
                               Department of the Navy (DON) Enterprise Information Technology
                               Standar d Business Case Analysis (BCA) Te mplate," based on an approved
                               m ethodology such as the Economic Viability Tool, and

                            b. Determine the way forward for contractor installation access based on
                               the findings of the independent, comprehensive business case analysis.

                   Directo"' Shore Readiness, Deputy Chief of Naval Operations
                   (Fleet Readiness and Logistics) Comments
                   The Director, Shore Readiness, Deputy Chief of Naval Operations (Fleet Readiness and
                    Logistics), agreed with the recommendation.        The Director stated the Commander,
                    Navy Installations Command, has requested that the Director, Assessments Division
                    (OPNAV N8 1), provide an expedit,e d independent verification and validation of the NCACS
                    BCA. Additio nally, the Director stated OPNAV N46 will work with the Assistant Secretary
                    of the Navy ( Financial Management and Comptroller), OP NAV N81, CNIC, and other Navy
                   stakeholders to review, validate, and ad just for mat/template accordingly to ensure the
                    completed! BCA fully complies with the DoD Inspector Genera l's requiremen ts.


                   The Director stated if fo!Jow-on actions are required as determined by the BCA, then
                    OPNAV N46 will work w ith CNIC to ensure development of consistent policies and
                    procedures across a ll Navy regions for contractor installation access control. The Director
                   stated, at a minimum, the policies and procedures will provide reciprocity for contractors
                   with existing federa lly sponsored background investigations. Finally, the Director stated
                    CNIC, with OPNAV N46 oversight , will a lso work with Echelon II commands to create a
                    visitor co nt rol process that complies with DoD and Dep artment of the Navy installation
                   security standards.


                   Our Response
                    Comments from the Director were responsive, and no further comments are required.




22   I DODIG-2013-131                               FSR SFFICIAb H!3E 8Nb\'
                                 FOR OFFIEL'tb HSE ONLY                                       Finding C




Finding C
CNIC Circumvented Competitive Contracting
Requirements
The CNIC N3AT Program Director, N3AT Assistant Program Managers for physical security,
and the Naval District Washington Chief Information Officer, circumvented competitive
contracting requirements, using two different contracting offices and inappropriate
contracting methods to implement and execute NCACS. Specifically, CNIC N3AT:

        • directed a prime contractor, in October 2011, and September 2012, to enter
           i.nto unauthorized commitments for out-of-scope work;

        • restricted full and open competition; and

        • allowed Eid Passport to continue providing services since November 1, 2012,
           without a contract.

This occurred because CNIC N3AT did not have contracting authority and developed a
COC as an administrative approach to maintain a relationship with Eid Passport. As a
result. the Navy expended $1,179,299 in disallowable costs for Eid Passport's services
and equipment. Furthermore, CN'IC N3AT lacked oversight of, and legal recourse against,
Eid Passport should Eid Passport fail to meet the requirements for implementing the
Navy's identity management and perimeter installation access control solution.



Contractor Competition is Required
The Competition in Contracting Act of 1984 requires agencies to obtain full and open
competition using competitive procedures in their procurement activities, unless
otherwise authorized by Jaw. Contracts awarded using full and open competition permit
all prospective contractors that meet certain criteria to submit proposals. Agencies are
generally required to perform acquisition planning and conduct market research to
promote and provide for full and open competition.


Rapidgate Procurement History
According to the "Navy Marine Corps Acquisition Regulation Supplement (NMCARS),"
january 2013, CNIC does not have contracting authority and is required to obtain
contractual coverage from the appropriate Head of Contracting Activity depending on
the type of procurement. Due to CNIC's lack of contracting authority, a Government




                                 FOR OFFICIAL !:tSE ONhY                               DODIG-2013-134   I 23
Finding C                                                     FOR OFFICIAL        ~!3E   8NLY



                Purchase Card (GPC) is the only contractual vehicle available to CNIC that does not require
                formal procurement support.

                In April20 10, CNIC N3ATpurchased seven, 1-year Rapidgatesystemsubscriptions totaling
                $2,499.49, using a CN IC GPC, with NAVSUP-delegated contracting authority, from the
                General Services Administration schedule. According to the NAVSUP Instruction 4200.99,
                "Department of the Navy (DON) Policies and Procedures for the Operation and
                Management of the Government-Wide Commercial Purchase Card Program (GCPC),"
                October 13, 2006, the GPC shall be used to make open market purchases for supplies
                and services not to exceed $2,500. The General Services Administration purchase order
                forms indicated that the price for seven Rapidgate subscriptions was $3,059.00. However,
                CNIC requested and was grantedl a price change authorization which resulted in a final
                price of $2,499.49,$0.51 below the micro-purchase threshold. In April2011, CNIC N3AT
                renewed the seven Rapidgate system subscriptions totaling $2,499.49 for an additional
                year using the same GPC methodology on another individual's GPC. However, the April
                2011 purchase order was canceled in October 2011 due to objections from NAVSUP
                regarding the contractual manner in which Rapidgate services were acquired.


                Prime Contractor Directed to Enter Into Unauthorized
                Commitments
                Without contracting authority, CNIC N3AT officials, with
                assistance from the Naval District Washington Chief                                      CN IC N3AT
                                                                                                     officials ...directed
                Information Officer, directed a prime contractor,                                  a prime contractor, 3e
                3e Technologies International (3eTI), to enter into                             Tech nologies International,
                unauthorized commitments totaling $1,179,299                                    to e nter into unauthorized
                                                                                                  c ommitments total ing
                without obtaining approval from the contracting
                                                                                                    $1,179,299 w ithout
                officers.         According to the Federal Acquisition                           ob taining pr ior approval
                Regulation (FAR) 43.102(a)(3), only contracting                                     from the contracti ng
                officers can direct or encourage the contractor to                                         officers.

                perform work. However, CNIC officials directed 3eTt
                personnel to subcontract for Eid Passport services and equipment on two unrelated
                contracts awarded by Naval Sea Systems Command contracting offices.

                In October 2011, 3eTI subcontracted with Eid Passport to purchase eight Rapidgate
                system subscriptions valued at -                              under a contract awarded by Naval Surface
                                                                      6
                Warfare Center (NSWC) Panama City.                        The accompanying Statement of Work between


                    6
                        Contract No. N61331-08-D-0043 Delivery Order 0006 was awarded by NSWC Panama City on Aprill3, 2011.




  I
24 DODIG-2013-134                                             F8R 8FFIEIAb ~!3E 8P4LY
                                          FOR OFFIC!Ab USE ONLY                                                 Finding C



3eTI and Eid Passport provides for the installation of Rapidgate at all Navy installations in
the Continental United States, Hawaii, and Marianas. However,3eTI's contract with NSWC
Panama City for the Navy-Wide Virtual Perimeter Monitoring System was restricted to the
development and demonstration of an interface capability at installations in Naval District
Washington. The contract did not include provisions for installation and ma·intenance
ot' Rapidgate at all Navy installations in the Continental United States, Hawaii, and joint
Region Marianas. Additionally, NSWC Panama City contracting personnel stated they
were unaware of the 3eTI subcontract with Eid Passport. Therefore, 3eTI's subcontract
with Eid Passport was an unauthorized commitment for out-of-scope work that would
normally require use of competitive contracting p rocedures. The Chief of Contracting at
NSWC Panama City should review the 3eTI subcontract and determine whether the costs
should be disallowed and recouped in accordance with FAR 42.8, "Disallowance of Costs,"
or if ratification actions may be appropriate in accordance with FAR 1.602-3,
"Ratification of Unauthorized Commitments." After the review is completed, the Chief of
Contracting should take the appropriate contracting actions.

Furthermore, on September 27, 2012, 3eTI subcontracted with Eid Passport to
purchase Rapidgate proprietary handheld scanners, valued at -                                on a contract
                                             7
awarded by NSWC Port Hueneme. This subcontract was initiated by the Naval District
Washington Chief Information Officer at the direction and request of CNIC N3AT officials
without working through the procuring contracting officer. However, 3eTI's contract
awarded by NSWC Port Hueneme was for the design, development, integration test, and
implementation of the Critical Infrastructure S·e nsor Network and it did not include
provisions for the purchase of handheld scanners. Additionally, the NSWC Port Hueneme
contracting officer was unaware of the subcontract and stated 3eTI did not have an
approved purchasing system in accordance with FAR 44.201-1(b). FAR Part 44.201
prohibits a ny subcontracting by a contractor without an approved purchasing system
if subcontracting amount exceeds 5 percent of the contract value. Since the estimated
contract value was $9,923,241, the value for 3eTI's subcontract with Eid Passport was
more than 10 percent of the estimated contract value and therefore should have required
prior approval from the contracting officer. Therefore, 3eTI's subcontract with Eid
Passport was an unauthorized commitment for out-of-scope work that would require
use of competitive contracting procedures or a Justification and Approval for sole source.
The Chief of Contracting at NSWC Port Hueneme should review the 3eTI subcontract
and determine whether the costs should be d isallowed and recouped in accordance
with FAR 42.8, "Disallowance of Costs," or if ratification actions may be appropriate in
accordance with FAR 1.602-3, "Ratification of Unauthorized Commitments." After the

 7
     Contract No. N63394-12-C·5127 was awarded by NSWC Port Hueneme on September 14, 2012.




                                          FOR OFFICIAL 1:1SE ONUt                                        DODIG-2013·134   I 25
Finding C                                        FOR OFFICh'tb ~9E SPQLY



                 review is completed, the Chief of Contracting should take the appropriate contracting
                 actions. Furthermore, the Assistant Secretary of the Navy (Research, Development, and
                 Acquisition), in conjunction with the Director of Contracts, Naval Sea Systems Command,
                 should conduct an accountability review relating to the unauthorized commitments
                 including full access to all information and individuals necessary to conduct the review.


                 CNIC Officials' Actions Restricted Full and Open
                 Competition
                 After entering into unauthorized commitments with Eid Passport, in June 2012,
                 CNIC N3AT issued an NCACS sources sought notice for market research to determine
                 which vendors had the capabilities to meet NCACS requirements. According to the NCACS
                 sources sought notice, the purpose was to obtain information regarding the availability
                 and capability of all qualified sources interested in participating as a NCACS commercial
                 credentialingservice. However; accordingto ·the NCACS sources sought notice, no contract
                 would be issued, and cont ract proposals were not being accepted. CNIC N3AT officials
                 stated there were two responses to the sources sought notice, one from Eid Passport and
                 another from Intellicheck Mobilisa. Despite previous statements of work noting that
                 Eid Passport vetted individuals against unreliab le databases, CNIC N3AT determined
                 only Eid Passport's response qualified them to and selected them to continue to provide
                 services for NCACS. However, instead of beginning appropriate contracting procedures to
                 maintain the services provided by Eid Passport, CNIC N3AT officials issued a COC, which
                 is not a contract, to Eid Passport based on its response to the sources sought notice.


                 Navy Lacks Contractual Coverage for Eid Passport
                 Services
                 While CN IC N3AT has been receiving services from Eid Passport to implement Rapidgate
                 at all Navy installations and facihties in the Continental United States, Hawai.i, and the
                 Marianas Eslands since April 2010, the Navy has not had valid contractual coverage since
                 November 1, 2011. Instead of providing for full and open competition, CNIC N3AT officials
                 directed a prime contractor to enter into unauthorized commitments for Eid Passports'
                 proprietary Rapidgate system and then issued a COC in October 2012 to allow Eid Passport
                 to continue providing services for the NCACS program. The COC explicitly stated it is
                 not a Federal contract and does not constitute an enforceable agreement. Furthermore,
                 the COC did not meet the definition of a contract as stated in FAR Part 2.101 because a
                 warranted conn·acting officer did not sign it and it did not bind the Federal Government




26 1DODIG-2013-134                               FSR SFFIEIAb ~9E 8NH/
                                            FOR OFFIC!Ab USE ONLY                                                                      Finding C



for any obligation of funds. As of May 2013, CNIC N3AT has allowed Eid Passport to
continue providing Rapidgate to support NCACS without contractual coverage.


Appropriate Contracting Authority Was Not Used
                              CNIC N3AT officials improperly directed a prime contractor to
                                        enter into unauthorized commitments, used inappropriate
           CNIC
      N3AT officials                      contracting methods, and incorrectly d eveloped the COC
        improperly                         because they did not have contracting authority.                              The
     directed a prime                      "Navy Marine Corps Acquisition Regulation Supplement
    contractor to enter
                                           (NMCARS),"            January         2013,        establishes          uniform
    into unauthorized
      commitments.                        Department of the Navy policies and procedures for
                                         implementing and supplementing the FAR and the Defense
                                  Federal Acquisition Regulation Supplement. NMCARS identifies
11 Head of Contracting Activities (HCAs) i n the Navy responsible for managing and
overseeing their respective contracting miss ions. According to the NMCARS, CNIC does
not have HCA authority and is therefore re quired to obtain contractual coverage from
the proper HCA depending on the type of procurement. CNIC N3AT officials justified
their use of the COC relationship with Eid Pa ssport stating their requests for contractual
coverage from an appropriate HCA we1·e cu mbersome and difficult. For example, after
cancellation of the GPC procurement of Rapidgate, C!NIC N3AT approached an HCA,
Naval Facilities Engineering Command, to pl ace NCACS into a contract administered by
Naval Facilities Engineering Command. However, Naval Facilities Engineering Command
declined to support the request resulting in CNIC N3AT officials inappropriately directing
an NSWC Panama City prime contractor to su bcontract for Rapidgate. After reviewing the
NSWC Pan ama City subcontract, CNIC gener al wunsel was concerned and notified CNIC
N3AT officials that this type of contract woul d not receive any legal support in the future.
Subsequently, CNJC N3AT officials develope d the COC as an administrative approach to
maintain a relationship with Eid Passport t hat did not requir e an acquisition vehicle.
According to CNIC N3AT officials, the COC l everages the Navy's stance as a third-party
beneficiaryS of the implied contract(s) bet ween NCACS participants and Eid Passport.
However, the Navy continued to receive se rvices, such as identity vetting, credential
creation, and database maintenance, direct ly from Eid Passport for maintenance and
managemellit of the NCACS program. The Assistant Secretary of the Navy (Research,
Development, and Acquisition) should initia te a review of the inappropriate contracting
practices related to NCACS and Eid Passpo rt and establish a corrective action plan to
resolve the contracting improprieties.


8 A third-party beneficiary is a party who stan ds to benefit from the execution of the contract even though that was not the

  intent of either contracting party.




                                            r~R ~FFIEIAL          M8E   ~NLY                                                    DODIG-2013-134   I 27
Finding C                                         FOR OFFIC!Ab USE ONLY



                 Navy Spent Over $1.1 Million in Potentially
                 Unallowable Costs and Lacked Oversight and Legal
                 Recourse Against Eid Passport
                 The Navy expended $1,179,299 in potentially unallowable costs for Eid Passport's
                 services and equipment. Furthermore, CNIC N3AT lacked oversight of, and legal recourse
                 against, Eid Passport in the event the service provider failed to meet its responsibilities.
                 The COC did not bind Eid Passport to perform the actions outlined in the COC and did not
                 provide CN IC N3AT the ability to legally enforce the stated requirements because the COC
                 did not constitute an enforceable agreement. For example, the COC required Eid Passport
                 to comply with DoD Information Assurance Certification and Accreditation Process, and
                 the NCACS Standard Operating Procedures. Additionally, under the COC, Eid Passport will
                 be subjected to an annual compliance audit by CNlC N3AT. However, without a contract or
                 legally binding agreement, CNlC N3AT officials did not have any legal options to enforce
                 compliance with the stated requirements. The only viable administrative option available
                 to CNIC N3AT is to terminate the COC issued to Eid Passport. However; this would render
                 NCACS inoperable because Eid Passport maintains the NCACS program data and the
                 database used for authentication.


                 Conclusion
                 The Navy Commercial Access Control System, using Rapidgate, did not effectively mitigate
                 access control risks, and did so at a potentially exorbitant price to the Navy. Although
                 NCACS did not comply with Federal and DoD vetting standards and did not effectively
                 mitigate access control r isks, CN IC N3AT took extraordinary measures to ensure the
                 program continued to operate without contracting authority. CNIC N3AT personnel used
                 inappropriate contracting practices, such as directing a prime contractor to enter into
                 unauthorized commitments to maintain Eid Passport's Rapidgate system and issuing
                 policy that prevented the Navy from fully accounting for NCACS costs. These actions
                 appear to have provided Eid Passport with a competitive advantage, allowing them to
                 realize substantial revenue annually for providing credentialing and vetting services for
                 the Navy without a contract. See Finding A for information on access control risks and
                 Finding B for the costs associated with NCACS. Due to the improprieties of NCACS and
                 consistent violations of Federal acquisition requirements, the Director, Shore Readiness,
                 Deputy Chief of Naval Operations (Fleet Readiness and Logistics), shouEd review
                 CNIC N3AT officials' actions, and determine whether administrative actions should be
                 taken, if appropriate.




28 1DODIG-2013-134                                r~R ~FFIEIAL   M8E   ~NLY
                                FOR OFFJCIAb HSH ONbY                                           Finding C




Recommendations, Management Comments, and Our
Response
Recommendation C.1.
We recommend the Assistant Secretary of the Navy (Research, Development, and
Acquisition}, initiate a review of the inappropriate contracting practices related to
the Navy Comme1·cial Access Control System and establish a corrective action plan
to resolve the contracting improprieties.


Assistant Secretary of the Navy (Research, Development, and
Acquisition) Comments
The Director; Program Analysis and Business Transformation and Director. Services
Acquisition, Office of the Deputy Assistant Secretary of the Navy (Acquisition and
Procurement), responding for the Assistant Secretary ofthe Navy (Research, Development,
and Acquisition), agreed with the recommendation. The Director stated the Office of the
Deputy Assistant Secretary of the Navy (Acquisition and Procurement), will initiate and
complete a review of the contracting practices and establish a corrective action plan if
it is determined that there were any improprieties. The Office of the Deputy Assistant
Secretary of the Navy (Acquisition and Procurement), expects to finish their review of the
contracting practices by October 25, 2013.


Our Response
Comments from the Director were responsive, and no further comments are required.

Recomm·endation C.l.
We recommend the Assistant Secretary of the Navy (Research, Development, and
Acquisition}, in conjunction with the Director of Contracts, Naval Sea Systems
Command, initiate an accountability reviiew relating to the unauthorized
commitments including full access to all information and individuals necessary to
conduct the review.


Assistant Secretary of the Navy (Research, Development, and
Acquisition) and Director of Contracts, Naval Sea Systems
Command Comments
The Director, Program Analysis and Business Transformation and Director. Services
Acquisition, Office of the Deputy Assistant Secretary of the Navy (Acquisition and
Procurement), responding for the Assistant Secretary ofthe Navy (Research, Development,




                                FEJR EJFFIEIAb ~SE EJNH/                                 DODIG-2013-134   I 29
Finding C                                      FOR OFFIC!Ab USE ONLY



                and Acquisition), and the Associate Director of Contract s, Naval Sea Systems Command,
                responding fo r the Director of Contracts, Naval Sea Systems Command, agreed w ith
                the recommendation. The Director, Program Analysis and Business Transformation
                and Director, Services Acquisition, Office of the Deputy Assistant Secretary of the Navy
                (Acquis ition and Procurement), and the Associate D]rector of Contracts, Naval Sea
                Systems Command, stated they w ill perform the recommended accountability review by
                October 25, 2013.


                Our Response
                Comments from the Director, Program Analysis and Business Transformation and Director,
                Services Acquisition, Office of the Deputy Assistant Secretary of the Navy (Acquisition
                and Procurement), and the Associate Director of Contracts, Naval Sea Systems Command,
                were responsive, and no further comments are required.


                Recomm,e ndation C.3.
                We recommend the Director, Shore Readiness, Deputy Chief of Naval Operations
                (Fleet Readiness and Logistics), perform a review of the Commander, Naval
                lnstaJJations Command Antiterrorism officials and consider administrative actions,
                if appropriate for:

                        a. Implementing the Navy Commercial Access Control System using
                           Eid Passport's Rapidgate system that allows contractors to have access
                           to Navy installations without having their identities vetted through
                           mandatory authoritative databases.

                        b. Implementing the Navy Commercial Access Control System without a
                           comprehensive business case analysis.

                        c. Improperly directing a prime contractor to enter into unauthorized
                           commitments of Navy funds.

                Director, Shore Readiness, Deputy Chief of Naval Operations
                (Fleet Readiness and Logistics) Comments
                The Director, Shore Readiness, Deputy Chief of Naval Operations (Fleet Readiness and
                Logistics), partially agreed with the recommendation. The Director stated that any review
                ofCNIC employees, including the determination as to whether a review is required, is the
                responsibi lity of the Comm ander, N;wy Installations Command. The Director stated the
                Command·er; Navy Installations Command, will take administrative action as appropriate
                pending the findings of reviews conducted purs.uant to recommendations 8.2, C.l , C.2,
                and C.4, as well as OPNAV N81 independent review of the BCA.


  I
30 DODIG-2013-134                              FOR OFFICIAL !:1SE ONhY
                                FOR OFFICIAL 1.-JSE OHLY                                          Finding C




Our Response
Comments from the Director. Shore Readiness, Deputy Chief of Nava~ Operations (Fleet
Readiness and Logistics), were partially responsive. We agree that reviews should
be conducted pursuant to recommend ations B.Z, C.l,        c.z,   and C.4, a nd if there are
findings, adm inistrative action be considered. However, we believe the review of CNIC
employee actions regarding NCACS implementation and contracting should be
performed by an entity independent of the Commander, Navy Installations Command.
An independent entity would not have a vested interest in the NCACS program and
would be free of potential conflicts in assessing the CNI C employee actions. We request
the Director, Shore Readiness, Deputy Chief of Naval Operations (Fleet Readiness
and Logistics), reconsider the recomm endation a nd provide additional comments in
response to the final report.


Recommendation C.4.
We recommend the Chief of Contracting offices at Naval Surface Warfare Cente rs
Port Hueneme and Pana ma City:

        a. Review the 3e Technologies International subcontract and de termine
           whethe r the ~costs s hould be disallowed and recouped in accordance
           with Fe de ral Acquisition Regulation 42.8, "Disallowance of Costs,"
           or if ratification actions may be appropriate in a ccordance with
            Federal Acquisition Regulation 1.602-3, "Ratification of Una uthorized
            Commitments," and

        b. Take the appropriate contr acting actions in accorda nce with t he
           determinations of the r eview.

Chief of Contracting Offices, Naval Surface Warfare Centers
Port Hueneme and Panama City Comments
The Associate Director of Contracts, Naval Sea Systems Command, responding for the
Chief of Contracting offices at Naval Surface Warfare Centers Port Hueneme and Panama
City, agreed with the recommendation. The Associate Director stated Naval Sea Systems
Command will conduct the review of the two contract actions specified in the report by
October 25, 2013.


Our Response
Comments from the Associate Director were responsive, and no further comments are
required.




                                FEJR EJFFIEIAb ~SE EJNLY                                   DODIG-2013-134   I 31
Appendixes                                       FOR OFFICIAL (.ooJSE OHLY




                Appendix A
                Scope and Methodology
                We conducted this performance audit from October 2012 through June 2013 in
                accordance with generally accepted government auditing standards. Those standards
                require that we plan and perform the audit to obtain sufficient, appropriate evidence to
                provide a reasonable basis for our findings and conclusions based on our audit objectives.
                We believe that the evidence obtained provides a reasonable basis for our findings and
                conclusions based on our audit objectives.

                We performed the audit to determine whether NCACS is mitigating access control risks
                to Navy installations. NCACS was implemented at all 61 Navy installations within the
                Continental United States. Of the 61 Navy installations, we non-statistically selected a
                sample of 10 installations to determine whether NCACS identity vetting complies with
                Federal and DoD requirements. 'fhe locations selected represent at least one installation
                from each of the six Navy regions within the Continental United States. According to
                CNIC N3AT management, NCACS implementation requirements did not vary by regions
                or installations. Therefore, the findings in this report may apply to all Navy installations
                in the Cont inental United States.

                We interviewed personnel, performed walkthroughs of Navy installation Pass and
                Identification offices and access control points, obtained and reviewed 104 NCACS
                warver requests, obtained and reviewed 47 contracts and other funding documentation
                for companies enrolled in NCACS, and reviewed supporting documentation for identity
                vetting at 10 Navy installations. From the interviews conducted with contracting officers
                and contracting officer representatives from five of the six Navy Regiions, we identified
                17 contractors that charged the Navy for costs incmred to purchase Rapidgate credentials.
                We reviewed contractor Requests for Equitable Adjustments, overhead prices, and other
                indirect costs. The records and actions reviewed occurred from April 2010 through
                May 2013.. See Appendix B for a listing of the 17 contractors and the related NCACS
                charges.

                (FQWQ) Our review included the followi ng Navy installations.

                           • Naval District Washington:

                                    0




                                    0




  I
32 DODIG-2013-134                                r~R ~FFIEIAL   (.ooJ8E ~NLY
                               FOR OFFIEL\L riSE OHLY                                       Appendixes



        • (FOHO) Navy Region Mid-Atlantic:

                  0




                  0




        • Navy Region Southeast:

                  0




                  0




        • Navy Region Midwest:

                  0




        • Navy Region South West:

                  0




                  0




        • Navy Region Northwest:

                  0




Use of Computer-Processed Data
We obtained and used computer-processed data. Specifically, we used paper copies of
the public record check results from SecurTest, Inc., and General Information Services,
Inc., databases to determine the accuracy and reliability of the information reported. We
compared the results of initial public record checks against the results of the periodic
and renewal checks and discussed the inaccuracies of the publicly accessible databases
in Finding A. We did not evaluate the databases used to perform the public record checks
because Eid Passport acknowledged the public data sources used to conduct record
checks were not always up-to-date, complete, accurate, or available.


Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department
of Defense lnspector General (DoD IG), and the Naval Audit Service issued six reports
discussing DoD's implementation of Homeland Security Presidential Directive 12,
physical access control, and force protection. Unrestricted GAO reports can be accessed
over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at




                               FOR OFFICIAL riSE ONLY                                   DODIG-2013-134   I 33
Appendixes                                     FOR OFFICIAL (xJSE ONLY



                http://www.dodig.mil/pubs /index.cfm. Naval Audit Service reports are not available
                over the Internet.


                GAO
                GAO Report No. GA0-11-751, "Personal ID Verification: Agencies Should Set: a Higher
                Priority on Using the Capabilities of Standardized Identification Cards," September 2011

                GAO Report No. GA0-08-292, "Electronic Government: Additional OMB Leadership
                Needed to Optimize Use of New Federal Employee Identification Cards," February 2008


                DoDIG
                DoDIG Report No. DODIG-2012-122, "DoD Should Procure Compliant Physical Access
                Control Systems to Reduce the Risk of Unauthorized Access," August 29, 2012 (Document
                is F'OUO)

                DoDIG Report No. D-2009-005, "Controls Over the Contractor Common Access Card Life
                Cycle;' October 10, 2008

                Do DIG Report No. D-2008-104, "DoD Implementation of Homeland Security Presidential
                Directive-12," june 23, 2008


                Navy
                Naval Audit Service Report No. N2011-0033, "Contracts Awarded to Selected Contractors
                by Naval Supply Systems Command and Naval Facilities Engineering Command Contracting
                Activities," May 5, 2011 (Document is FOUO)




  I
34 DODIG-2013-134                              f'~R ~FFIEIAL   (xJ8E   ~NLY
                                     FOR OFFIC!Ab USE ONLY                                              Appendixes




Appendix B
Identified Contractor Companies and Amounts Charged
for NCACS-Related Costs
         Contractor Company            Amount Charged               Documentation Provided

                                                            Request for Equitable Adjustment (REA) to
ASG Solutions Corporation                    $743
                                                            contract N00178-05-D-4191-JMOl

WalBridge Aldinger Company                  27,497          REA to contract N69450-09-C-0758

The Ross Group Construction Corp.           30,878          REA to contract N69450-10-D-0771-0002

W.G. Yates & Sons Construction Co.          77,436          REA to contract N62467-05-D-0183

J.J. Sosa & Associates, Inc.                 5,390          REA to contract N69450-10-D-0783-0001

Akea, Inc                                    4,771          REA to contract N69450-09-C-1294

Orion Marine Construction                   10,742          REA to contract N69450-09-C-1259

Dei-Jen, Inc                                49,817          REA to contract N69450-07-D-0770

Gottfried Construction LLC                  21,666          REA to contract N62467-06-D-3140-0006

Power Services, Inc.                         1,193          REA to contract N69450-10-C-7328

                                             5,693          REA to contract N40085-11-C-0200
W.F. Magann
                                             9,878          REA to contract N40085-09-C-5058

Mcl ean Cont racting Co.                    18,673          REA to contract N40085-11-C-0001

ACEPEX Management Corp                      10,017          REA to contract N40085-06-D- 1260

                                                            Overhead charge to contract N00189-09-
Goodwill Industries                        199,148
                                                            C-Z003

DynCorp international                       99,197          Overhead documentation provided

                                           235,640          Overhead documentation provided
BAE Systems
                                           202,870          Overhead documentation provided

Huntington Ingalls                         270,180          Overhead documentation pro·vided

 Total                                  $1,281,429




                                     r~R ~FFIEIAL    M8E   ~NLY                                   DODIG-2013·134   I 35
Glossary                                             FOR OFFIEL'tb HSE ONI::Jl




                 Glossary
                  Background Check: The act of reviewing both confidential and public information to
                 investigate a person's history. Background checks are commonly performed by employers
                 to ensure that: (1) an employee is who he or she says they are, (2) to determine that the
                 individual does not have a damaging history (such as criminal activity) that may reflect
                  poorly on the company, (3) to confirm information that an applicant included on their
                 application for employment.

                 Contractor Employee: An individual who performs work for or on behalf of any agency
                  under a contract and who, in order to perform the work specified under the contract,
                  will require access to space, information, information technology systems, staff, or other
                 assets of the Federal Government. Such contracts include, but are not limited to:

                           • personal services con tracts,

                           • contracts between any non-FederaJ entity and any agency, and

                           • subcontracts between any non-Federal entity and another non-Federal entity
                                 to perform wor k related to the primary contract with the agency.

                  Installations: Real DoD properties including bases, stations, forts (including Nation al
                 Guard and Federal Reserve Centers), depots, arsenals, plants (both contractor- and
                 Government-operated), hospitals, terminals, and other special mission facilities, as well
                 as those used primarily for military purposes.

                  National Agency Check With Written Inquiries: Consists of searches of the Office of
                  Per'Sonnel Management Security Suitability Investigations Index; the Defense Clearance
                 and Investigations Index; Federal Bureau of Investigation Identification Division
                 fingerp rint name file and fingerprint chart; Federal Bureau of Investigation Records
                  Management Division files; written inquiries; and record searches covering specific areas
                 of a subject's background during the past 5 years.

                  PIV Credential: A physical artifact (for example, an identity card o r a "smart" card)
                 issued to an individual that contains stored identity credentials (such as a photograph,
                 cryptographic keys, digitized fingerprint representation) so that the claimed identity
                 of the cardholder can be verified against the stored credentials by another person
                 (human-readable and verifiable) or an automated process (computer-readable and
                  verjfiable).




36 1 DODIG-2013-131                                  FOR OFFICIAL lvJSE ONUt
                                    FOR OFFIC!Ab USE ONLY                                          Glossary



Public Rec()rd Check: The act of reviewing any publicly available information, minutes,
files, accounts or other records (including hearsay in the record) that may not be
up-to-date, complete, accurate, or available to investigate a person's history to determine
if the individual has a damaging history (such as criminal activity).

Rapidgate System l·Year Subscription: As listed in Eid Passport's General Services
Administration General Schedule GS-35F-0436U, the 1-year Rapidgate services include
registration; employee background screenings; identification badges; access control
authentication; reporting; equipment maintenance; and training. Rapidgate equipment
and software include: registration station(s). guard station(s), handheld reader device(s),
antenna equipment, and identification badges. Eid Passport retains all rights and title
to Rapidgate equipment, software, and data.        Eid Passport charges enrollment and
registration fees to vendors. Minimum ordering activity qualifications: the total number
of vendor companies divided by the tota ~ number of access control points must be at least
50 at each facility/installation.

Vetting: An evaluation of an applicant's or a cardholder's character and conduct for
approval, acceptance, or denial for the issuance of an access control credential or physical
access.




                                    FOR OFFIEIAb USE OPHX                                  DODIG-2013·134   I 37
Management Comments                              FOR OFFICIAL 1.-JSE OHLY




                 Management Comments
                  Department of the Navy Comments


                                      T H E DEPUT Y UND E R SE C R ET ARY OF T HE NAVY
                                                    WASI<INGTON OC 10350- 1000




                       MEMORANDUM FOR Tiffi DEPARTMENT OF DEFENSE INSPECTOR GENERAL


                       SUBJECT: Department of the Navy's Response to Department of Defense Inspector
                                General Report Project Number D2013-DOOOLC-0008.000 dnted 24 Jun
                                13

                            The Department of the Navy (DON) appreciates the opportunity to respond and
                       comment on the Department of Defense Inspector General Report Project Number
                       02013-DOOOLC-0008.000 dated 24 Jun 13.

                              The DON concurs with most of the recommendations and has established target
                       dates to address those recommendations. The Commander, Navy Installations Command!
                       non-concurs with rec.ommendations A.l.-A .3 in the report. The Director, Shore
                       Readiness Division, Deputy Chief ofNaval Operations (Fleet Readiness and Logistics)
                       non-concurs with recommendation C.3. CNIC requests to further discuss these four
                       findings. Details of our specific comments and recommendations are attached.




                                                              crnud.      ~~Aa'!Ntr
                                                                          .
                                                               Robert Martmag

                       Attachment:
                       As stated




38 1 DODIG-2013-131                              FEJR EJFFIEIAL 1.-JSE EJNLY
                                 FOR OPFIEL'tb HSE ONLY                                            Management Comments




Department of the Navy Comments (cont'd)




              DEPARTMENT OF DEFENSE INSPECTOR GENERAL REPORT
               PROJECT NO . D·2013-DOOOLC-0008.000 DATED 24 J UNE 2013

               "NAVY COMMERCIAL ACCESS COI\TROL SYSTEM DJD NOT
                  EFFECTIVELY MJTIGATE ACCESS CONTROL RISKS"

     The Navy's responses to the Department of Defense Inspector General's (DODIG)
     recommendations are as follows:



     RECOMMENDATlON A.l.: The DODIG recommended that the Commander, Navy
     Installations Command, immediately discontinue the use of Rapidgate and any other
     system that exclusively uses publicly a.vailable databases to vet and adjudicate contractor
     employees accessing Navy installations. and replace it with a system or process that
     meets Federal and DoD requirements for background vetting.

     RESPO NSE (CNIC): Non-concur. Navy Commercial Access Control System
     (NCACS) s.t andards meet or exceed Federa.I and DoD requirements for background
     vetting. The current Commercial Credential Source (CCS) is a federally approved
     Personal Identity Verification - Interoperable (J>IV-1) compliant company. In addition to
     the commercial vetting conducted by the NCACS provider. the Navy currently conducts
     the National Crime lnformation Center (NCIC) check and final issuance of the credential.
     CNIC will always maintain oversight and quality control of the final product and
     determines whether or not the credential is ultimately issued. Prior to acceptance into
     NCACS as a CCS, a credentialing linn or entity must demonstrate f1.1ll compliance and
     capabilities in conformity with a long 1ist of stringent requirements starting with HSPD-
      12, DTM 09-012. FIPS 201, DoD 5200.08-R, and more than a dozcl'li other Federal, DoD
     and Navy s'andards/instructions. Finally. more than 36.700 companies with over
     438,000 of their employees or vendors have been vetted and credentialed via }JCACS.
     IDiscontinuing a successful system that has facilitated over 14,000,000 safe and secure
     visits will ensure there are unnecessarily long waiting Lines at gates and access points at
               the                        including some or our largest bases in -
                                                   result is loss in productivity for those
     contractors and vendors doing business on Navy installations. Abandoning the current
     NCACS business solution would require the hiring of significant numbers of additional
     civil servants to work in base pass offices across the CNIC enterprise. This w<>uld not be
     feasible in a time of austerity that has occasioned mot only furloughs and hiring freezes,
     bui. actual Reductions in Force (RJF) at CNIC.




                                 FEJR EJFFIEIAb HSE EJNLY                                                DODIG-2013-134   I 39
Management Comments                                  FOR OFFIC!Ab USE ONLY




                    Department of the Navy Comments (cont'd)




                         RECOMMENDATION A.2.: The OODIG recommended that the Commander, Navy
                         Installations Command, revise Instruction 5530.14, "CNIC Ashore Protectio111 Program,"
                         July 7, 2011, and Notice 5530, "Navy Comrnercial Access Control System Within
                         Continental United States Regions, Navy Region Hawaii, and Joint Region Marianas,'"
                         July 5, 2012, to require contractor employees req1.1iring rouuine physical access to Navy
                         installations for greater than s ix months receive the DoD Personal Identity Verification
                         credential with the National Agency Check with Written Inquiries.

                          RESPONSE (CNTC): Non-concur. CNlC is in line with DoD authorities and
                         Congressional guidance to leverage security by partnering with commercial entities,
                         adopti.ng commercial off-the-shelfsolutions, and accepting identity c redentials from Non-
                         Federal Issuers (NFT). CNIC NCACS standards either meet or exceed the requirements
                         mandated by DoD or cited by the DOD! G. Additi<>nally, those vendors or contractors
                         that meet the federal standards to be issued a Common Access Card (CAC) are indeed
                         issued a CAC. It is CNIC' s understanding of current policy there are two components to
                         issuing a CAC - physical access to an installation for greater than six months AND
                         logical access to the Navy's networks. Many vendors or contractors meet the physical
                         access requirement for an installation but not the access to the Navy's network, thus
                         necessitating other a lternatives for issuing credentials. Finally, the NCACS CCS vetting
                         combined with the CNIC NCIC check encompasses those checks conducted via a
                         National Agency Check with Written h1quj1·ies (NACI).

                         RECOMMENDATION A.3.: The DODIG recommended. that the Commander, Navy
                         Installations Command:




                         resources and capabilities needed to access National Crime Information Center
                         and the Terrorist Screening Database.

                           b. Establish a process to identify which installations need resources and
                         capabilities to access. National Crime Information Center and the Terrorist
                         Screening Database for contractor background vetting and provide Installation
                         Commanders with needed resources and capabilities.



                                                                    2




40   I DODIG-2013-131                                FOR OFFIEIAb HSE ONLY
                                 FOR OFFIEL'tb l-ISE ON bY                                        Management Comments




Department of the Navy Comments (cont'd)




     !RESPONSE (CNlC): Non-concur. CNIC has already accomplished the goal of
     providing access control resources and capabilities to Navy Installations: NCACS is the
     resource and is a force multiplier to Navy access control programs. Navy installations
     are generally NCIC-capable and NCACS is in the process of attaining even greater and
     more facilitated NC!C access via process improvements. DODIG's conclusions
     regarding NCIC-check capability ofNavy installations were based upon interviews of
     personnel who did not have full knowledge ofthe system, such as gate guards who are
     not responsible for credentialing. Furthermore, to the extent providing resources equates
     ro hiring additional personnel, this is not economically feasible given the fiscal
     constraints on the Command and is not consistent with DOD and Congressional policy
     that encourages adopting conwlercial-off-the-shel f security solutions for base access.
     Additionally, USD(AT&L) and the Defense Manpower Data Center are currently
     working access to the Terrorist Screening Database on beha If of all Department of
     Defense installations via the Identity Management Enterprise Services Architecture.
     CNIC will take advantage of this capability once it is available.

     RECOMMENDATION B. I.: The DO DIG recommended that the Assistant Secretary
     of t he Navy (Research, Development and Acquisition) review the use ofNavy
     Commercial Access Control System/Rapidgate contract language concerning contractor
     reimbursement and take appropriate action, if necessary.

     RESPONSE (DASN(AP)): Concur. By 25 Oct 13, the Deputy Assistant Secretary of
     the Navy for Acquisition and Procurement (DASN(AP)) will initiate and complete a
     review of the Navy Commerciial Access Control System/Rapidgate contract language to
     ensure the contract language is consistent with the cos! principles and procedures i.n
     Federal Acq uisition (FAR) Subpart 31.2. Based on the review. if it is determined that the
     contract language is inconsistent with the FAR requirements. DASN(AP) will take
     appropriate action.

     RECOM MENDATION 8.2.: T he DODIG recommended that the Director, Shore
     Readiness, Deputy Chief of Naval Operations (Fleet Readiness and Logistics):

       a. Obtain an independent comprehensive business case analysis for the Navy
     Commercial Access Control System in accordance with Department of Navy Chief
     [nformation Officer Memorandum "Required Use of Department ofilie Navy (DON)
     Enterprise Information Technology Standard Business Case Analysis (BCA) Template."

                                                 3




                                 FEJR EJFFIEIAb l-ISE EJPHX                                             DODIG-2013-134   I 41
Management Comments                                  FOR OFFIEIAL l-ISE ONLY




                    Department of the Navy Comments (cont'd)




                         based on an approved methodology such as the Economic Viability T ool, and

                            b. Determine the way forward for contractor installation access based on lhe
                         findings of the independent comprehensive business case analysis.


                         RESPONSE (N46): Concur. Commander, Navy Installations Command has requested
                         that the Director, Assessments Division (OPNAV N8 I) provide an expedited independent
                         verification and validation of the Navy Commercial Access Control System (NCACS)
                         BCA. The BCA submitted is in full compliance with the "Required Use of the
                         Department of the Navy (DON) Enterprise Information Technology Standard Business
                         Case Analysis (BCA) Template, 30 Juo II." OPNAV N46 will work with Assistant
                         Department of the Navy Financial Management and Comptroller (FM &C), N8 I, CNIC
                         and other Navy stakeholders t.o review, validate and adjust format/template accordingly
                         to ensure the completed BCA meets full compliance of the DOD IG's requirements. Jf
                         it's determined what, if any, follow-on actions are required il:hen, estimated completion
                         date for the BCA and follow-on N46 analysis and recommendations is 30 Sepl 13. If
                         determined by the BCA, OPNAV N46 will work with CNIC to ensure development of
                         clear, concise and consistent policies and procedures across all Navy regions for
                         contractor installation access control. At a minimum, the policies and procedures will
                         provide rccmprocity for contractors with existing federally sponsored ·background
                         investigations. CNIC, with OPNA V N46 oversight, will also work with Echelon II
                         commands to create a visitor control pr-ocess that complies with DoD and DON
                         installation security standards.


                         RECOMMENDATION C.L : The DODIG recommended that the Assistant Secretary
                         of the Navy (Research, Development and Acquisition). initiate a review of the
                         i.nappropriate contracting practices related to the Navy Commercial Access Control
                         System and establish a corrective action plan to resolve the contracting improprieties.

                         RESPONSE (DASN(AP)): Concur. DASN(AP) will initiate and complete a review of
                         the contracting practices and establish a corrective action plan if it is determined that
                         there were any improprieties. Target period for completion of the review and corrective
                         action plan, if necessary, is 25 Oct 13. It should be noted that CNIC is working with its
                         designated contracting agency. NAVSUP, to issue a competitive contract for the Navy

                                                                     4




42   I DODIG-2013-131                                f'~R ~FFIEIAL       l-J8E   ~NLY
                                  FOR OFFICIAL l.xJ9E ONLY                                           Management Comments




Department of the Navy Comments (cont'd)




     Commercial Access Control System. Contract award is expected in Q4 FYI4.

     RECOMMENDAT ION C.2.: The DO DIG recommcndedl that the Assistant Secretary
     o f the Navy (Research. Development and Acquisition), in conjunction with the Director
     of Contracts, Naval Sea Systems Command, initiate an accountability review relating to
     Lhe unauthorized commitments including full access to all information and individuals
     necessary to conduct the review.

     RESPONSE (NAVSEAIDASN(AP)): Concur. NAVSEA 02 in conjunction with
     OASN(AP) will pert:'onn the recommended accountability review by 25 Oct 13.

     RECOMMENDATION C.3.: The DODJG recommended that the Director, Shore
     Readiness, Deputy Chief of Naval Operations (Fleet Readiness and Logistics), perform a
     review of the Commartder, Navy Installations Command Antiterrorism officials and
     consider administrative actions, if appropriate for:

        a. Implementing the Navy Commercial Access Control System using Eid
     Passport's Rapidgate system that allows contractors to have access to Navy
     ~nstallations without !having their identities vetted through mandatory authoritative
     databases.

       b. Implementing the Navy Commercial Access Control System without a
     comprehensive business case analysis.

      c. Improperly directing a prime contractor to enter into unauthorized comm.itmems of
     Navy funds.

     Response (N46): Partially concur. Any perfonnancc review ofCNIC employees.
     inc luding the determination as to whether a review is required, is the responsibility of the
     Commander. Navy Installations Command. Pendi111g findings from reviews conducted by
     ASN(RDA)/NAVSEA based on DoD IG recommendations 18.2, C . I, C.2 and C.4 as well
     as OPNAV N81 independent review of the BCA (recommendation 8.2), Commander,
     Navy Installations Command will take administratlive actions as appropriate. Target for
     completion of the review and recommended administrative actions, ifnece.c;sary, is 24 Jan
     14 (approximately 90 days after receipt of ASN(RDA), NA VSEA and OPNA V N81
     lindings). As noted previously in our response to A. I. CNIC has concluded the

                                                  5




                                  f9R 9FFIEUrb HS!ol ONLY                                                  DODIG-2013-134   I 43
Management Comments                                  FOR OFFIC!Ab USE ONLY



                    Department of the Navy Comments (cont'd)




                         Rapidgate system allows contractors to have access to Navy installations by properly
                         vetting their identities through the mandatory authoritative databases."

                         RIECOMMENDATION C.4.: The DODIG recommended that the ChicfofContracting
                         offices at Naval Surface Warfare Center Port Hueneme and! Panama City:

                           a. Review the 3e Technologies tntemational subcontract and determine whether the
                         costs should be disallowed and recouped in accordance with Federal Acquisition
                         Regulation 42.8, '·Disallowance of Costs,'' or if ratification actions may be appropriate in
                         accordance with Federal acquisition Regulation 1.602-3, "Ratification of Unauthorized
                         Commitments, and

                            b. Take the appropriate contracting actions in accordance with the determinations of
                         the review.

                         Response (NAVSEA): Concur. The review wilt be conducted by 25 Oct 13 and witt
                         apply to the two contract actions specified in the report, which occurred within the
                         NA VSEA Enterprise.




                                                                      6




44   I DODIG-2013-131                                FOR OFFICIAL 1:1SE ONUt
                                   POR OPFIEIAL toJ~E OIH;Y   Acronyms and Abbreviations




Acronyms and Abbreviations
     3eTI   3e Technologi es International
     BCA Business Case Analysis
    CNIC Commander, Navy Installations Command
     COC Certification of Compliance
    DTM     Directive Type Memorandum
     FAR    Federal Acquisition Regulation
     GIPC Government Purchase Card
     HCA Head of Contrracting Activity
    N3AT    Antiterrorism Office
  NAVSUP Naval Supply Systems Command
   NCACS    Navy Commer cial Access Control System
    NCIC National Crime Information Center
   NSWC Naval Surface Warfare Center
      PIV Personal identity Verification




                                   FOR OPFICIAL USE OPHX                 DODIG-2013-134   I 45
             Whistleblower Protection
            U.S. DEPARTMENT OF DEFENSE
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whist/eblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleb/ower webpage at
               www.dodig.miljprogramsjwhis.tleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                        Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             DoD Hotline
                             800.424.9098

                            Media Contact
                 Public.Affairs@dodig.mil; 703.604.8324

                           Month!}• Update
                  dodigconnect-request@listserve.com

                         Reports Ma iling List
                  dodig_report-request@listserve.com

                                Twitter
                          twitter.com/DoD_IG
